<html>
<title> - NO CHILD LEFT BEHIND: HOW INNOVATIVE EDUCATORS ARE INTEGRATING SUBJECT MATTERS TO IMPROVE STUDENT ACHIEVEMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  NO CHILD LEFT BEHIND: HOW INNOVATIVE
                   EDUCATORS ARE INTEGRATING SUBJECT
                 MATTERS TO IMPROVE STUDENT ACHIEVEMENT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              May 18, 2006

                               __________

                           Serial No. 109-41

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-985                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 18, 2006.....................................     1
Statement of Members:
    Castle, Hon. Michael N., a Representative in Congress from 
      the State of Delaware, prepared statement of...............    47
    McKeon, Hon. Howard P. ``Buck,'' Chairman, Committee on 
      Education and the Workforce................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, Ranking Minority Member, Committee on 
      Education and the Workforce................................     3
        Prepared statement of....................................     5
    Norwood, Hon. Charlie, a Representative in Congress from the 
      State of Georgia, prepared statement of....................    48
    Porter, Hon. Jon, a Representative in Congress from the State 
      of Nevada, prepared statement of...........................    49

Statement of Witnesses:
    Ablott, Elizabeth, science resource teacher, Arlington Public 
      Schools, Virginia..........................................    25
        Prepared statement of....................................    28
    Garrison, Mickey, principal of Fullerton IV Elementary 
      School, Oregon.............................................    15
        Prepared statement of....................................    18
    Holt, Frederick G., principal, Lewiston Elementary/Middle 
      School, Johannesburg-Lewiston Area Schools, Michigan.......    20
        Prepared statement of....................................    23
    Lydic, Garrett W., 2006 state teacher of the year, North 
      Laurel Elementary School, Delaware.........................    10
        Prepared statement of....................................    11
    Zeigler, Ray, fine arts specialist, Maryland State Department 
      of Education...............................................    31
        Prepared statement of....................................    32

Additional Testimony Submitted:
    The National Council for the Social Studies, letter and 
      prepared statement.........................................    49


                         NO CHILD LEFT BEHIND:
                      HOW INNOVATIVE EDUCATORS ARE
                     INTEGRATING SUBJECT MATTER TO
                      IMPROVE STUDENT ACHIEVEMENT

                              ----------                              


                         Thursday, May 18, 2006

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:03 a.m., in room 
2175, Rayburn House Office Building, Hon. Howard McKeon 
[chairman of the committee] presiding.
    Present: Representatives McKeon, Castle, Ehlers, Biggert, 
Osborne, Wilson, Porter, Kline, Inglis, Fortuno, Foxx, Miller, 
Kildee, Scott, Woolsey, McCarthy, Tierney, Kind, Holt, Davis of 
California, McCollum, Grijalva, and Bishop.
    Staff present: James Bergeron, Counselor to the Chairman; 
Amanda Farris, Professional Staff Member; Ray Grangoff, 
Legislative Assistant; Jessica Gross, Press Assistant; Richard 
Hoar, Professional Staff Member; Kimberly Ketchel, Deputy Press 
Secretary; Lindsey Mask, Press Secretary; Chad Miller, 
Coalitions Director for Education Policy; Deborah L. Emerson 
Samantar, Committee Clerk/Intern Coordinator; Toyin Alli, Staff 
Assistant; Alice Cain, Legislative Associate/Education; Denise 
Forte, Legislative Associate/Education; Lauren Gibbs, 
Legislative Associate/Education; Lloyd Horwich, Legislative 
Associate/Education; Joe Novotny, Legislative Assistant/
Education; and Mark Zuckerman, Staff Director/General Counsel.
    Chairman McKeon [presiding]. A quorum being present, the 
Committee on Education and the Workforce will come to order.
    We are holding this hearing today to hear testimony on ``No 
Child Left Behind: How Innovative Educators Are Integrating 
Subject Matter to Improve Student Achievement.''
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow member statements and other 
extraneous material referred to during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.
    Good morning. I thank my colleagues for joining me at the 
first in our new series of hearings on the landmark No Child 
Left Behind Act. Over the past several years, our panel has 
held numerous hearings on the implementation and impact of this 
historic reform law. Those hearings have proven essential for 
this committee in the early years of the No Child Left Behind 
era, and we learned a great deal from them.
    Today, we are launching a fresh, bipartisan effort during 
which we will examine many critical aspects of the law. These 
hearings will focus on the four essential pillars of education 
reform: accountability, flexibility and local control, funding 
for what works, and expanded parental options. And because next 
year's reauthorization of No Child Left Behind may be the most 
important law we will ever see, I am confident these 
discussions will prove valuable for all of us.
    I am especially eager to work with and listen to each of my 
committee colleagues during this effort, including our 
committee's senior Democrat, Mr. Miller; the Education Reform 
Subcommittee's chairman, Mr. Castle; and the ranking member on 
that panel, Mrs. Woolsey. I am pleased they are joining me in 
spearheading these hearings.
    Today's hearing will examine the impact of No Child Left 
Behind's focus on reading and math instruction, as well as what 
creative educators are doing to incorporate a wide variety of 
subjects into their classroom instruction.
    Initial results show No Child Left Behind is working to 
improve student achievement and reduce the achievement gap 
between disadvantaged students and their more fortunate peers. 
Long-term trend data released last summer reveals significant 
improvements in overall student achievement, with noteworthy 
gains among minority students. And according to data presented 
to Congress by the Council of the Great City Schools, urban 
students have posted higher math and reading scores on state 
tests since No Child Left Behind was signed into law.
    Some have raised concerns that our initial success in 
improving achievement in math and reading has narrowed the 
curriculum in many of our nation's schools. I disagree.
    First, math and reading comprise the foundation for any 
sort of academic success, regardless of subject matter. But 
more importantly, there are scores of men and women across the 
country using innovative methods to teach reading and math, 
while also maintaining a rich curriculum in other areas. Some 
of those men and women are here today, and I am eager to hear 
about their efforts, some of which will be on display this 
morning.
    I believe today's hearing will be an example of the 
deliberate, responsible examination of the facts that we will 
see in the remaining hearings in this series. At the outset, we 
know this: after decades of failed reform efforts, coupled with 
hundreds of billions of taxpayer dollars spent with little or 
no success in closing the achievement gap, the impact of No 
Child Left Behind has been dramatic and a positive step forward 
for students, teachers, parents, and taxpayers. We can't and 
won't take a step back.
    Mr. Miller has been a real leader in this effort, and he 
has had to take some very courageous stands against some of his 
natural constituents. He has been on this committee a lot 
longer than I have, and he has seen the money that has been 
spent. I know in a lot of meetings we had and the hearings and 
all the things we did in writing this law, it was a real 
pleasure working with him. I am really excited about it as we 
go forward in the reauthorization. I look forward to our 
discussion. I am eager to hear thoughts from our witnesses.
    With that, I yield to Mr. Miller for his opening statement.
    [The opening statement of Chairman McKeon follows:]

    Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, 
                Committee on Education and the Workforce

    Good morning. I thank my colleagues for joining me at the first in 
our new series of hearings on the landmark No Child Left Behind Act. 
Over the past several years, our panel has held numerous hearings on 
the implementation and impact of this historic education reform law. 
Those hearings have proven essential for this Committee in the early 
years of the No Child Left Behind era, and we learned a great deal from 
them.
    Today, we are launching a fresh, bipartisan effort during which we 
will examine many critical aspects of the law. These hearings will 
focus on the four essential pillars of education reform: 
accountability, flexibility and local control, funding for what works, 
and expanded parental options. And because next year's reauthorization 
of No Child Left Behind may be the most important the law will ever 
see, I am confident these discussions will prove valuable for all of 
us.
    I am especially eager to work with and listen to each of my 
committee colleagues during this effort, including our Committee's 
senior Democrat, Mr. Miller; the Education Reform Subcommittee's 
Chairman, Mr. Castle; and the ranking Member on that panel, Mrs. 
Woolsey. I'm pleased they are joining me in spearheading these 
hearings.
    Today's hearing will examine the impact of No Child Left Behind's 
focus on reading and math instruction, as well as what creative 
educators are doing to incorporate a wide variety of subjects into 
their classroom instruction.
    Initial results show No Child Left Behind is working to improve 
student achievement and reduce the achievement gap between 
disadvantaged students and their more fortunate peers. Long-term trend 
data released last summer reveals significant improvements in overall 
student achievement, with noteworthy gains among minority students. And 
according to data presented to Congress by the Council of the Great 
City Schools, urban students have posted higher math and reading scores 
on state tests since No Child Left Behind was signed into law.
    Some have raised concerns that our initial success in improving 
achievement in math and reading has narrowed the curriculum in many of 
our nation's schools. I disagree.
    First, math and reading comprise the foundation for any sort of 
academic success, regardless of subject matter. But more importantly, 
there are scores of men and women across the country using innovative 
methods to teach reading and math while also maintaining a rich 
curriculum in other areas. Some of those men and women are here today, 
and I am eager to hear about their efforts, some of which will be on 
display this morning.
    I believe today's hearing will be an example of the deliberate, 
responsible examination of the facts that we'll see in the remaining 
hearings in this series. At the outset, we know this: after decades of 
failed reform efforts, coupled with hundreds of billions of taxpayer 
dollars spent with little or no success in closing the achievement gap, 
the impact of No Child Left Behind has been dramatic--and a positive 
step forward for students, teachers, parents, and taxpayers. We can't--
and won't--take a step back. I look forward to this hearing and our 
entire series, and I yield to my friend Mr. Miller for his opening 
statement.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman.
    And thank you so much for beginning this series of hearings 
in advance of the reauthorization next year. I think it is 
important. I think it gives us an opportunity and the time to 
hear from those people who are on the frontlines trying to make 
No Child Left Behind work, and also those who are having 
difficulty with it, and some of that for very sound reasons. We 
should pay attention to all of these comments.
    As one of the original co-authors of No Child Left Behind, 
I get asked a lot about NCLB's future. Our challenge with 
reauthorization next year will be to maintain the core values 
of the law, that is closing the achievement gap, helping all 
children become proficient in the knowledge and the skills that 
they need at grade-level and to graduate, and making sure that 
they have a highly qualified teacher in their classrooms, while 
still being responsive to the legitimate concerns that have 
been raised.
    No Child Left Behind is making a difference. School 
districts across the country that have taken the goals of this 
law to heart and are working to improve the academic 
achievement of their children. The achievement gap is closing 
between African American and white children, between Hispanic 
and white children, between high-and low-income children, and 
we are making progress in many school districts.
    However, we can do better. The criticisms we hear are valid 
in many instances. I look forward to hearing from teachers and 
parents, students and principals, and superintendents and 
others on how we can address them. One of the criticisms that 
we hear about No Child Left Behind is that it focuses on 
reading and math for accountability purposes, and that leads 
educators to narrow the curriculum focusing on these subjects 
at the expense of others.
    I have visited a number of schools, however, where this 
concern has been raised, including most recently schools in 
South Dakota, in Pine Ridge on the Rosebud Reservation. I also 
saw educators who were integrating curriculum in exciting ways, 
such as the ones the teachers and students were using media and 
video and movies to learn important math concepts in the 
process.
    I was pleased that the National Indian Education 
Association has provided written testimony for today's hearing 
and thank them for reminding the committee and the members and 
the stakeholders that NCLB explicitly recognizes the unique 
educational and culturally related academic needs of Native 
American children. There is a great interest in hearings on the 
impact of NCLB on Native American children. I look forward to 
taking a closer look at that issue during reauthorization.
    It is important for us to acknowledge that NCLB has put 
pressure on educators to re-think their curriculum and to 
sometimes make tough choices. If a child is not proficient in 
reading, I think we would all agree that it is urgently 
important and in the best interest of that child for his or her 
school to prioritize reading and do whatever it takes to make 
sure that he or she learns this most basic skill.
    Without mastering reading, the child will be hard-pressed 
to understand their social studies text and other subjects. 
They will be hampered in numerous ways throughout life. Most 
would agree, however, that we do not want this increased focus 
on reading to come at the expense of history, social studies, 
arts and other subjects that add balance and richness to the 
learning experience.
    We also need to acknowledge that the creative and 
innovative educators across this country, who are represented 
on this panel today, are thinking creatively and finding ways 
to make sure that it is not an either/or proposition for 
students, not reading or history or math or music. These 
educators are finding innovative ways to make sure that their 
students get the best of all subjects and their achievements 
are soaring in these schools.
    One thing in particular that I will be listening for today 
is what we in Congress can do during the reauthorization is how 
we avoid that either/or choice. And I would hope that our 
panelists would be able to explain to us how they have been 
able to do that. We have to think how we can encourage and make 
this more feasible for educators to think in creative, 
innovative and successful approaches to follow what we will 
hear today.
    And, Mr. Chairman, I want to say that I think this is a 
very positive beginning to the reauthorization process, that we 
will hear those who have been successful in the process, those 
who are struggling, and those who are making attempts but 
haven't quite figured it out yet, so that we can make sure that 
this law works for all of the districts and certainly for all 
of our children.
    Thank you very much.

  Prepared Statement of Hon. George Miller, Ranking Minority Member, 
                Committee on Education and the Workforce

    Good morning. I want to thank Chairman McKeon for scheduling 
today's hearing and starting the process of reviewing No Child Left 
Behind. It has been over four years since we enacted this law and I am 
eager to hear from our panelists about how it has worked for them and, 
most importantly, for their students.
    As one of the original authors of No Child Left Behind, I get asked 
a lot about NCLB's future. Our challenge with reauthorization next year 
will be to maintain the core values of the law--closing the achievement 
gap and helping all children become proficient in the knowledge and 
skills they need to graduate--while still being responsive to 
legitimate concerns.
    No Child Left Behind is making a difference. School districts 
across the country have taken the goals of this law to heart and are 
working to improve academic achievement for their students.
    The achievement gap is closing between African American and white 
children, between Hispanic and white children, and between high- and 
low-income children. We are making progress in many school districts.
    However, we can do better. The criticisms we hear are valid in many 
instances and I look forward to hearing from teachers, parents, 
students, principals, superintendents, and others about how we can 
address them.
    One of the criticisms that we hear about NCLB is that its focus on 
reading and math for accountability purposes leads educators to narrow 
the curriculum, focusing on these subjects at the expense of others. I 
have visited a number of schools where this concern has been raised 
including, most recently, schools in South Dakota on the Pine Ridge and 
Rosebud Indian Reservations.
    But I also saw educators there who were integrating curriculum in 
exciting ways--such as one teacher whose students were making their own 
movies, and learning important math concepts in the process.
    I am pleased that the National Indian Education Association has 
provided written testimony for today's hearing and thank them for 
reminding committee Members and stakeholders that NCLB explicitly 
recognizes the unique educational and culturally-related academic needs 
of Native American children. There is great interest in hearings on the 
impact of NCLB on Native American children and I look forward to taking 
a close look at this issue during reauthorization.
    It is important for us to acknowledge that NCLB has put pressure on 
educators to rethink their curriculum and to sometimes make tough 
choices. If a child is not proficient in reading, I think we would all 
agree that it is urgently important--and in the best interest of that 
child--for his or her school to prioritize reading and do whatever it 
takes to make sure he or she learns this most basic of skills.
    Without mastering reading, a child will be hard-pressed to 
understand their social studies text, or other subjects--and they will 
be hampered in numerous ways throughout life. Most would agree, 
however, that we do not want this increased focus on reading to come at 
the expense of history, social studies, the arts, or other subjects 
that add balance and richness to the learning experience.
    We also need to acknowledge the creative and innovative educators 
across the country--who are represented by our panel today--who are 
thinking creatively and finding ways to make sure that it's not an 
``either-or'' proposition for their students--not reading or history, 
or math or music.
    These educators are finding innovative ways to make sure their 
students get the best of all subjects and their achievement is soaring 
at these schools.
    One thing in particular that I will be listening for today is what 
we in Congress can do during the reauthorization to prevent schools 
from feeling that they must choose the ``either-or'' approach.
    We must also think about how we can encourage--and make it more 
feasible--for more educators to take creative, innovative, and 
successful approaches like those we will hear about today.
    Nothing we will do on this committee is more important than 
ensuring that we live up to No Child Left Behind's promise of 
opportunity and a quality education for every child.
    I appreciate all that each of our panelists are doing to make this 
a reality and look forward to hearing from you.
    Thank you Mr. Chairman.
                                 ______
                                 
    Chairman McKeon. Thank you. I am happy to hear you talk 
about visiting Pine Ridge and Rosebud, South Dakota, North 
Dakota, those areas where my younger brother years ago was a 
missionary for our church, and he served in that area. I 
remember him telling me stories about the problems they had. He 
has since passed away a few years ago. I wish he were still 
here. I wish he could talk to you about some of those things.
    Mr. Miller. A lot of challenges, but there are some 
fascinating things going on in some of those isolated small 
schools.
    Chairman McKeon. That is great.
    I yield now to my good friend, the chairman of the 
Subcommittee on Education Reform, Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman.
    I am also excited to be here this morning for the first of 
our upcoming hearings on No Child Left Behind. Let me clarify 
that, because we have had I think about 10 hearings on the 
implementation of No Child Left Behind. We are now entering 
into a stage of preparing for the reauthorization of No Child 
Left Behind with a series of hearings which we have announced.
    I am also excited to hear from all of our witnesses, all of 
whom have done exemplary things in education and who took time 
out of their schedules to be with us today. We thank you.
    Over the course of the past several years, I have often 
argued that we are encountering one of the most exciting times 
in education. I have said this and continue to say this for a 
couple of reasons. First, we are all engaged as a country on 
closing the achievement gap. This conversation is happening at 
all levels of government, among parents, academics and 
especially in our school systems. This dialog and support is 
key and provides necessary momentum.
    Second, which will be highlighted today, is the fact that 
our educators are not shying away from the demands of No Child 
Left Behind. Over the course of my visits to schools and in 
almost every press report, I hear about a teacher, 
administrator or parent who has done something to raise the 
achievement level of students in their lives. We must all 
remember that ultimately the point of No Child Left Behind is 
the needs of our students.
    One of my visits took me to Laurel, Delaware, where I met 
Garrett Lydic, who is here to testify before us today. I do not 
want to give away any of his testimony, but as soon as I saw 
him in the classroom with the students, I knew that I wanted to 
share what I saw with my colleagues.
    Quickly, I learned that innovative teaching methods and 
integration are happening in many schools across the country. 
What is interesting, and we sometimes don't think about in 
education, is that in our everyday lives we integrate various 
subject areas. Think about your day and you will notice that it 
is rare that you ever sit down to a task and focus solely on 
math or history of whatever. Not only is integration realistic 
and yet another way to make learning fun, but it defies those 
who believe that No Child Left Behind narrows curriculum.
    I look forward to hearing from all of you and thank you for 
being with us today. After years of implementation, we have 
reached a point where we are able to both discuss 
implementation of No Child Left Behind, as well as the 
impending reauthorization. I want to thank Chairman McKeon for 
working with me when deciding our list of hearings. I look 
forward to working under your chairmanship in highlighting No 
Child Left Behind successes and identifying ways in which we 
may be able to improve the law. Because one thing is for sure, 
it is here to stay.
    Finally, I would like to recognize Ranking Member Miller's 
staunch support of the law. I very much look forward to our 
continued partnership.
    I yield back.
    Chairman McKeon. Thank you.
    I now recognize my fellow Californian and the ranking 
member on the subcommittee, Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman, and thank you for 
beginning this series of hearings on next year's 
reauthorization of the Elementary and Secondary Education Act.
    I also want to thank Ranking Member Miller and subcommittee 
chairman, Mr. Castle, because I look forward to working with 
all of you in recognizing what needs to be rewritten in the No 
Child Left Behind law and keeping what is working absolutely as 
solid as we can.
    We must ensure that each child receives a world-class 
education and we know that that is the right thing to do for 
every single child in this country. We know that it is an 
investment in our country's future.
    The president and the Congress, however, have underinvested 
in the No Child Left Behind Act by more than $40 billion. In 
fact, the only thing about No Child Left Behind funding that 
has increased every year is the gap between what the president 
and the Congress promised our children and what they have 
provided our children.
    So we need to keep ourselves accountable and keep our 
promise to fully fund No Child Left Behind. But we also have to 
ask hard questions about the law itself. We all agree with the 
law's goal of closing the achievement gap and the increased 
public focus on that issue has been extremely positive 
throughout the nation. But we must ask whether beyond 
highlighting the problems, this law is helping schools to fix 
the problems.
    I look forward to hearing testimony today and in the coming 
months from students, parents, teachers, principals, 
administrators, those who actually deal with this every single 
day of their lives. I have spoken extensively with parents and 
educators in my district, people who are dedicated to the 
success of every student. Many of them tell me that No Child 
Left Behind has become a tool to label schools, not always 
accurately, instead of a tool to help them help their students.
    I know that those concerns are not limited to my district. 
That is why I believe this reauthorization is so very critical. 
My priorities for reauthorization are a law that is fair, 
flexible and fully funded, and the result of a process that 
includes all perspectives, both on current law and on how best 
to educate our children, ideas and thoughts that will give the 
law the credibility it needs from all participants in our 
children's education in order to succeed.
    Mr. Chairman, I believe that today can mark the beginning 
of this process. I also wanted to thank you for making arts 
education one of today's topics. A recent report suggests that 
in many schools, No Child Left Behind has resulted in more time 
for math and reading and less for arts and history, and that 
these trends may be more pronounced in high-minority schools. I 
have heard this from my district as well.
    Representative Castle and I recently encouraged the 
Department of Education to conduct a survey on the extent of 
arts education in our public schools. This is not about 
minimizing the importance of math and reading, which we all 
know to be essential, but about ensuring that every child has 
access to a well-rounded education and educating the whole 
child.
    So I look forward to hearing our witnesses. I want to hear 
what your experiences are. I am particularly interested in 
integration of arts education and other subjects throughout the 
curriculum.
    Thank you, Mr. Chairman.
    Chairman McKeon. We have a distinguished panel of witnesses 
here today. I would like to begin by welcoming them and 
introducing them.
    I would like to ask Mr. Castle if he would introduce Mr. 
Lydic.
    Mr. Castle. Thank you, Mr. Chairman.
    Mr. Lydic is a physical education teacher in grades 2 
through 4 at North Laurel Elementary School in Laurel, 
Delaware. He has recently been chosen as Delaware's teacher of 
the year for 2006. As a teacher, Mr. Lydic has excelled in 
integrating academic subjects into his physical education 
curriculum.
    Also joining Mr. Lydic are some of his students: Alissa 
Gibbons, Gaby Colver, Shanda Mann, Alexa Thuddy, Natalie Savan, 
and J.T. Tindall. If I omitted anybody, I hope you will 
introduce them too, Mr. Lydic.
    His wife Leslie is also here. I saw the two of them 
teaching together, as a matter of fact, when I was down 
visiting the school. She is also obviously a phys-ed teacher in 
the same district. And Cristy Greaves, the principal, is also 
here. We welcome them and perhaps some parents who are here as 
well.
    So we welcome Mr. Lydic here. I yield back for the other 
introductions.
    Chairman McKeon. Mr. Miller, would you please introduce Dr. 
Garrison?
    Mr. Miller. Thank you, Mr. Chairman.
    Dr. Mickey Garrison and I met over a cup of coffee at a 
math summit that was called by the filmmaker George Lucas. Many 
know of George Lucas because of Star Wars and American Graffiti 
and so many great films, but he has been passionate about 
education, and the George Lucas Education Foundation put 
together a math summit for teachers and professors of math and 
researchers from all over the country.
    Dr. Garrison and her partner there, Tammy, were picked out, 
and they had a video that they showed about how they 
incorporate math, and some of that will be in her testimony. We 
won't be able to see the whole video, but she rocked that hall. 
So it was her video against George Lucas's, and she was winning 
in that hall with those math teachers about the excitement in 
that school.
    I want to thank you very much for inviting them to 
participate.
    Chairman McKeon. We get to visit lots of schools, and we 
get to see some exciting things happening. You hear all the 
negatives, but one of the good things about being on this 
committee is we get to visit schools and see a lot of exciting 
things happening.
    I am glad that we have a couple of principals here today. 
Rightly so, there is a lot of talk about teachers and their 
importance. We don't talk enough about parents and their 
importance. We don't talk enough about principals and their 
importance.
    I can walk on a campus, and I can tell if that is a good 
school. It is a feeling you feel right away. And that is set by 
the principal, and then it funnels down through every teacher 
and through the students.
    We have another principal here this morning, Mr. Rick Holt. 
He spent the last 8 years as principal of the Lewiston K-8 
School in rural Lewiston, Michigan, where he has seen his 
school of 350 students go from being labeled as chronically 
under-performing to a school of excellence, receiving an ``A'' 
from the Michigan Department of Education. Prior to his work at 
Lewiston, Mr. Holt worked in the Atlanta community in Michigan, 
where he spent 5 years as principal of approximately 300 
students in a pre-K-6 school.
    Next, we have Mrs. Betsy Ablott, a teacher at Arlington 
Science Focus School in Arlington, Virginia. At the Science 
Focus School, Ms. Ablott has been an instructional leader, 
having served as the lead science teacher and also a mentor 
teacher for her fellow faculty. Ms. Ablott has been a classroom 
teacher since 1998 and is currently working to obtain her Ph.D. 
at George Mason University School of Education.
    Mr. Ray Zeigler is a fine arts specialist for the Maryland 
State Department of Education, where one of his principal 
responsibilities is directing the Maryland Artist-Teacher 
Institute, a professional development program for integrating 
the arts at the elementary and middle school levels. For 3 
years, Mr. Zeigler functioned as a coordinator for the Maryland 
Music Curriculum Task Force and later chaired the Maryland Fine 
Arts Task Force, which developed the essential learner outcomes 
in the fine arts.
    We are really happy to have you here and really look 
forward to the things you are going to talk about. This is 
going to be a little different than many hearings where we have 
the panelists tell us things. They are also going to show us 
some things and are going to involve some of their students 
here, so it should be a very exciting hearing.
    On a point of personal privilege, I have in the audience my 
cousin of many years--I won't say how old she is, but she is 
younger than I am--and her husband, Becky Dorsh, her husband 
Peter, and their son. So I am happy to have them here.
    Now, we will hear from Mr. Lydic.

STATEMENT OF GARRETT W. LYDIC, 2006 STATE TEACHER OF THE YEAR, 
                 NORTH LAUREL ELEMENTARY SCHOOL

    Mr. Lydic. Chairman McKeon, Ranking Member Miller and other 
distinguished members of the Committee on Education and the 
Workforce, good morning and thank you for the opportunity to 
testify before you today about something so near and dear to my 
heart.
    My name is Garrett Lydic, and I teach approximately 550 
2nd-, 3rd-and 4th-grade students, with physical education as my 
discipline, at North Laurel Elementary School in Laurel, 
Delaware. This past year, I was awarded Delaware's teacher of 
the year for 2006. Two days during our school's 6-day cycle, I 
have the privilege of working alongside of my wife Leslie, also 
a physical educator within the Laurel School District.
    The main goal of our program is to hook our students on 
physical activity by exposing them to a variety of movement 
opportunities that are fun, stimulating and that allow each of 
them to experience their own personal level of success. We have 
discovered through our experience over the last 10 years that 
physical education is an ideal vehicle for reinforcing the 
academic standards that students are learning within their 
classrooms.
    During many of our physical activities, students apply the 
concept they are learning in areas such as math, science, 
writing and reading to achieve a goal. We have discovered that 
our students get exciting about learning academic content 
standards in this manner because they are performing physical 
activities, rather than the typical classroom activities where 
students are seated at their desks.
    The success of our program is directly related to the 
support that we have received from our community, as well as 
from our administration. For example, 5 years ago I wrote and 
received a grant from MBNA, a company recently acquired by Bank 
of America, to purchase a 60-foot Discovery Climbing Wall 
system that enables our students to enable all the physical, 
emotional and social benefits associated with climbing, while 
also applying the academic content standards.
    Without the support of MBNA, it is highly unlikely that our 
district could have purchased this $13,000 climbing wall 
system. The Discovery Wall surface is similar to a blackboard, 
allowing participants to write with chalk and attach magnets. 
As part of the grant, we obtained additional funding to 
purchase a variety of educational magnets, including numbers, 
math problems, letters, words, money and symbols. In our 
lessons, climbers traverse or climb sideways along the wall and 
always have a helper who acts as their spotter.
    Just a few of the many activities that we do on the 
Discovery Wall to integrate other curriculum areas include 
climbing while searching for matches to math problems; climbing 
using only odd-and even-numbered handholds and footholds; 
climbing while searching for all the letters to a spelling 
word; and climbing using only verb, noun or adverb hand-and 
footholds.
    Another MBNA grant that we received was for Speed Stacks 
equipment. Sport Stacking is an exciting individual and team 
sport where participants stack and unstack 12 specifically 
designed plastic cups in predetermined sequences. Sport 
Stacking is a cross-lateral activity, meaning that students 
cross the midline of their body, thereby making use of both 
sides of their brain. Research suggests that cross-lateral 
activities assist with brain function, thus improving learning 
capabilities for children.
    Our students really enjoy performing stacking activities, 
as you will see today, especially those that incorporate math 
skills. By using a stack mat with a timer, students can attain 
a time for any of the stacking patterns that they are 
practicing. These times are then used to solve math problems, 
including ordering, addition, obtaining a median, or grouping 
of numbers.
    I would like to show a short video at this time. And while 
the video clip wasn't really intended for this purpose, I 
believe it will help better illustrate these climbing and 
stacking activities.
    [Videotape played.]
    Mr. Lydic. It is important that children be given 
opportunities to make conceptual connections to real-world 
experiences, so they see their studies as something meaningful 
and relevant. While I am convinced that the physical 
environment is ideal for providing such opportunities, it is 
also important to note that research clearly shows achievement 
increases for children whose teachers introduce kinesthetic or 
movement experiences within the classrooms.
    Thank you again, Chairman McKeon, Ranking Member Miller and 
other distinguished members of the Committee on Education and 
the Workforce, for your leadership and commitment to providing 
quality public education in our great country. Thank you also 
for providing me with this opportunity to share some of my 
experiences with you.
    I brought a group of students with me today who are 
prepared and eager to share their experiences within you upon 
request.
    I have also brought Speed Stacks cups for the members of 
your committee, courtesy of Bob Fox, owner of Speed Stacks, 
Incorporated.
    Thank you again, and I look forward to answering any 
questions you have about our program.
    [The prepared statement of Mr. Lydic follows:]

Prepared Statement of Garrett W. Lydic, 2006 State Teacher of the Year, 
                North Laurel Elementary School, Delaware

    Chairman McKeon and Ranking Member Miller and other distinguished 
members of the Committee on Education and the Workforce: Good morning 
and thank you for the opportunity to testify before you today about 
something near and dear to my heart. I am pleased to be able to provide 
information today about integrating core content subject areas 
including math, science, and reading into physical education and also 
integrating movement into the classroom environment to assist student 
learning.
    My name is Garrett Lydic and I teach approximately 550 second, 
third, and fourth grade students with physical education as my 
discipline at North Laurel Elementary School, in Laurel, Delaware. This 
past year I was awarded Delaware's Teacher of the Year for 2006. I have 
been teaching physical education in this capacity for 5 years and my 
wife, Leslie, also a physical educator within the Laurel School 
District, has been teaching since the mid 90s. We actually teach 
together at North Laurel Elementary School two days during our six-day 
cycle.
    The main goal of our program is to hook our students on physical 
activity by exposing them to a variety of movement opportunities that 
are fun, stimulating, and that allow each of them to experience their 
own personal level of success. We are committed to integrating other 
content areas and learning into our lessons. We feel that concepts and 
skills that children are currently studying in math, reading, science, 
and social studies can easily and effectively be incorporated into 
their physical education lessons. Our approach to teaching correlates 
with John Dewey's belief that many children are able to demonstrate 
greater cognitive improvements when lessons emphasize activities and 
processes where children interact with their environment (Ornstein, 
1997). Additionally, Swiss psychologist Jean Piaget learned that when 
interacting with and manipulating their physical environments, children 
are better able to develop an understanding of abstract ideas such as 
cause-effect relationships and physical characteristics such as weight 
and volume (Ormrod, 2000).
    We have discovered through our experience over the last 10 years 
that physical education is an ideal vehicle for reinforcing the 
academic standards that students are learning within their classrooms. 
During many of our physical activities, students apply the concepts 
they are learning in areas such as math, science, writing, reading, and 
social studies to achieve a goal. We have observed that our students 
get excited about learning math, spelling, and other academic content 
standards in this manner because they are performing physical 
activities rather than the typical classroom activities where students 
are seated at their desks. This also enables children to see how 
concepts learned in one venue are transferred to other venues and to 
life's challenges.
    The success of our program is directly related to the support that 
we have received from the community and from our administration. For 
example, five years ago I wrote and received a grant from MBNA to 
purchase a 60-foot discovery climbing wall system that enables our 
students to experience all the physical, emotional, and social benefits 
associated with climbing while also applying concepts learned in math, 
writing, spelling, and science. Without the support of MBNA, recently 
acquired by Bank of America, it is highly unlikely that our district 
would have been able to purchase this $13,000 climbing wall system. 
Projects such as these are extremely difficult to fund so we feel 
fortunate that MBNA recognized the potential of our Discovery Wall 
project. The Discovery Wall surface is similar to a blackboard, 
allowing participants to write with chalk and attach magnets. As part 
of the grant, we obtained additional funding to purchase a variety of 
educational magnets including numbers, math problems, letters, words, 
money, and symbols. In our lessons, climbers traverse (climb sideways) 
along the wall and always have a partner who acts as their spotter. 
Spotters are trained to offer motivational, navigational, and/or 
physical support only when absolutely necessary or when the partner who 
is climbing requests such help. Just a few of the many activities we 
can do on the Discovery Wall to integrate other curriculum areas 
include climbing while searching for matches to math problems, climbing 
using only odd or even numbered hand and/or footholds, climbing while 
searching for all the letters to spelling words, and climbing using 
only verb, noun, or adverb hand and/or footholds. Again, these are just 
a few of the many activities that are possible with the discovery wall 
system.
    Another MBNA grant that we received was for Speed Stacks equipment. 
When I was introduced to Sport Stacking two years ago I knew instantly 
that this was an activity that my students would just love. Sport 
stacking is an exciting individual and team sport where participants 
stack and unstack 12 specially designed plastic cups in pre-determined 
sequences.
    Individual stackers race against the clock for fastest or best 
times. Stackers also compete on a relay team racing against another 
team in head-to-head competition. With practice, a person can stack at 
lightning speed that has to be seen to be believed. Sport Stacking can 
be individualized, allowing each student to work to success at his/her 
own level. It is also geared to include students of all ability levels, 
allowing every student to succeed, while still challenging the more fit 
and athletic students. Students learn not only how to be physically 
active, but why; and how to take personal responsibility for this 
critical aspect of their lives.
    Sport stacking is also a ``cross lateral'' activity meaning that 
students cross the midline of their body, thereby making use of both 
sides of their brain. Research suggests that cross-lateral activities 
assist with brain function, thus improving learning capabilities for 
children. Increasing bilateral proficiency (equal performance on both 
sides of the body) develops a greater percentage of the right side of 
the brain which houses awareness, focus, creativity and rhythm.
    When one crosses the midline, the brain begins to make new 
connections and the right and left hemispheres begin to work together. 
This communication process organizes the brain for better concentration 
and problem solving. Crossing the midline integrates brain hemispheres 
to enable the brain to organize itself. When students perform cross 
lateral activities, blood flow is increased in all parts of the brain, 
making it more alert and energized for stronger, more cohesive 
learning. Movements that cross the midline unify the cognitive and 
motor regions of the brain: the cerebellum, basal ganglia, and corpus 
callosum while stimulating the production of neurotrophins that 
increase the number of synaptic connections (Dennison, Hannaford).
    In addition to the countless activities designed to improve their 
stacking skills, our students perform stacking activities that 
incorporate math skills. By using a Stack Mat with a timer, stackers 
can obtain a time for any of the stacking patterns they are practicing. 
These times are then used to solve math problems including ordering, 
addition, obtaining a median and grouping of numbers.
    I'd like to show a 1-minute video at this time that is likely to 
give you a better illustration of students performing these types of 
climbing and stacking activities. Please note the smiles on the 
students' faces as well as their level of engagement.
    It is important that children be given opportunities to make 
conceptual connections to real-world experiences so that they see their 
studies as something meaningful and relevant. While the physical 
environment has proven to me to be ideal for providing such 
opportunities for students, research clearly shows achievement 
increases for children in classrooms where teachers introduce 
kinesthetic or movement experiences within their lessons.
    Einstein so succinctly pointed out, ``learning is experience, and 
everything else is just information.'' There is ample data that clearly 
supports the importance of movement at every age, from the toddler to 
the adult. We know that apathy in the classroom dissipates as sensory 
activation and hands-on learning are increased. As educators 
incorporate more physical activity and less lecture, all of our 
students, not just the kinesthetic learners or those lacking social 
skills, will experience increased intrinsic motivation, improved 
attitudes, more bonding, and yes, even more brain cells. In fact, when 
it comes down to it, most of our problems can be solved through 
purposeful integration of active learning (Jensen, E).
    The scope of movement activities these researchers are referring to 
includes recess, dance, play, theater, games, energizers, and physical 
education. They add that movement experiences such as these elicit a 
different kind of learning referred to as implicit or one that is 
centered in the body. Explicit learning, which is much more common in 
our schools, includes lecture, textbooks, research, video, and 
discussion (Jensen, E). Let me give you an example that may better 
illustrate the potential of implicit learning through movement. Let's 
say that while in grade school, you learned how to ride a bicycle and 
that the capital of Uzbekistan was Tashkent. In five years, would you 
still be able to ride a bicycle without any further practice or would 
you remember the capital of Uzbekistan without any further application 
of that information? The likely answer to riding the bicycle is yes, 
which represents implicit learning, and no to remembering the capital 
of Uzbekistan, which represents explicit learning.
    Allowing students to move away from their desks or computers and 
interact with classmates in some form of activity or exercise leads to 
incidental learning which is just as important to total overall growth 
and development, as is content learning. As implicit learning 
activities are incorporated into the classroom, research clearly shows 
achievement increases for all levels of students.
    It is important that all educators become advocates for movement 
and activity, with teachers and administrators ensuring that more 
movement and kinesthetic teaching strategies are incorporated into 
their lessons and school-wide activities, thereby reaching a greater 
percentage of students. Research suggests that eighty-five percent of 
school-aged children are natural kinesthetic learners. Movement 
activities tend to be cross-cultural, resulting in robust effects 
across the entire range of human cultures. At-risk students thrive when 
provided with movement or hands-on activities enabling them to 
experience learning and apply the concepts being learned while 
answering real-life questions. While gifted children discover a new way 
to learn, the slower learners quickly become actively engaged and 
successful, and non-English speaking students are able to understand 
the curriculum through a more nonverbal approach. Brain-based research 
suggests the best learning occurs when students learn new content for 
10-15 minutes and break for at least 2 minutes-a perfect time for a 
movement activity (Bevel, K). Bringing movement into the classroom not 
only increases learning, but also makes the classroom a healthier, 
happier place to learn and teach.
    While certainly not commonplace, there are many physical educators 
who regularly integrate content into their physical education lessons. 
For example, Jerry Thornton, the Missouri State Teacher of the Year has 
his students perform a ``quarter, nickel, or dime's worth of certain 
activities (for example a dime's worth of push-ups would be 10 push-
ups). He also holds money relay races to help his young students better 
understand the concepts of money.
    Thank you again, Chairman McKeon and Ranking Member Miller and 
other distinguished members of the Committee on Education and the 
Workforce, for your leadership and commitment to providing quality 
public education in our great country. Thank you also for providing me 
with this opportunity to share some of my experiences with you. I have 
brought a group of students with me today who are prepared and eager to 
share their sport stacking talents with you upon request. I have also 
brought a set of Speed Stacks cups for each of the 20 members of your 
subcommittee courtesy of Bob Fox, owner of Speed Stacks Inc. Thank you 
again and I look forward to answering any questions you might have 
about our program.
                                 ______
                                 
    Chairman McKeon. I think we would all like to see the 
students do a little demonstration.
    Mr. Lydic. Is that right? I think they would be glad to 
come on out. Thank you. I thought it was a great opportunity 
for them and for you all to see it.
    Chairman McKeon. Just don't ask any of us to do it.
    Mr. Lydic. Excellent idea.
    [Laughter.]
    By the way, this was Mr. Castle's idea to bring the 
students.
    [Laughter.]
    Whenever you are ready, ladies.
    They are doing what is called a cycle stack. It combines 
three separate stacking patterns. They just did a 3-6-3. Now, 
they are going to work on a 6-6, and will follow up with a 1-
10-1, and then finish up with a 3-6-3 down-stack.
    [Applause.]
    If you would entertain four more students, that would be 
wonderful.
    [Laughter.]
    Mr. Castle. Could Chairman McKeon come down there and do it 
with the kids?
    [Laughter.]
    Do you think that would be possible? And maybe Mr. Miller?
    Mr. Lydic. This is Gaby and Shanda. That is called a 
fumble, when they fall off the table. We call those fumbles. 
They keep going, and they don't stop.
    [Applause.]
    This is J.T. and Alissa Gibbons. You saw Alissa on the 
video at the very end.
    [Applause.]
    Very nice. Very nice. Wonderful.
    [Applause.]
    Thank you very much.
    Chairman McKeon. Wow.
    [Laughter.]
    Can you do that, too?
    Mr. Lydic. Not like that, I can't.
    [Laughter.]
    Chairman McKeon. That was great.
    Dr. Garrison?

     STATEMENT OF MICKEY GARRISON, PRINCIPAL, FULLERTON IV 
                           ELEMENTARY

    Dr. Garrison. Well, thank you for the honor for us to share 
what we do at our school.
    And I just want to comment that we also do cup-stacking, 
and so now we have a link to the East Coast.
    We are very proud to share our integrated approach to what 
we do with mathematics as a focus. However, all of our 
curriculum is integrated.
    We have a PowerPoint that I think we are going to just let 
go of. You hopefully have copies. And thank you so much for the 
invitation. I think what we will do instead is have you have an 
opportunity to see what we do at our school.
    Coming from Oregon, we weren't able to bring our students 
with us, so we captured some of what we do on film, and this 
was done as a result of a math achievement award that we 
received through the Scholastic Intel Program. And the filming 
is done through the George Lucas Education Foundation.
    And so, if we could look at Fullerton IV and what we do in 
math.
    [Begin videotape.]
    Teacher in Classroom. Today is what date?
    Students in Classroom. 10/4/05.
    Narrator. It begins in the first 5 minutes of first period.
    Teacher in Classroom. What kind of a number do I have? Is 
it a composite number, a fine number or a square number?
    Students in Classroom. Square.
    Narrator. It continues throughout the day.
    History class----
    Teacher in Classroom. We are going to measure the length of 
Titanica's side.
    Narrator [continuing]. Art class----
    Teacher in Classroom. Whatever you make has to be cut out--
--
    Students in Classroom. Symmetrically.
    Narrator [continuing]. Computer lab----
    Teacher in Classroom. And the next one?
    Students in Classroom. Forty-four.
    Narrator [continuing]. And it ends in last-period music 
class.
    Teacher in Classroom. We are going to take the math idea of 
below a zero and turn it into music.
    Narrator. It is part of most everything that happens at 
Fullerton IV. A K-5 school in Roseburg, Oregon, it is the magic 
of math.
    Teacher in Classroom. You are absolutely correct.
    Dr. Garrison. To me, math is not a subject. It really 
allows kids to learn how to reason and problem-solve and learn 
how to effectively communicate.
    Teacher in Classroom. Now, music is sound. So what would be 
the opposite of sound?
    Student in Classroom. Silence?
    Teacher in Classroom. Silence.
    Dr. Garrison. And if they can think conceptually, it opens 
up not just math, it opens up thinking. It makes connections 
for them in the real world.
    Teacher in Classroom. Now, remember to put some silence in 
your patterns.
    Dr. Garrison. It allows them to explore music and art. And 
so, math is really the foundation.
    Teacher in Classroom. Oh, I see some really wonderful 
positive negatives, just like those math numbers. Great.
    Narrator. With all the engaging ways to learn here, it is 
not surprising most Fullerton students say----
    Student. And my favorite subject is math.
    Student. Doing math.
    Student. Probably math.
    Student. Math.
    Student. I like math a lot.
    Student. It is probably soccer.
    Student. Probably reading and math.
    Student. I just like to add and subtract.
    Interviewer. What is your second-favorite subject?
    Student. Playing with friends.
    Student. I like division the most.
    Student. Math.
    Interviewer. What do you like to do in a classroom?
    Student. Probably math.
    Student. My favorite subject is actually math.
    Interviewer. How come?
    Student. I just like it.
    Narrator. Fullerton's math curriculum is based on a 
continuous review of best practices and delivered by highly 
trained teachers, beginning in kindergarten.
    Teacher in Classroom. Tell me about green, blue, green, 
blue.
    Student in Classroom. It is a pattern.
    Teacher in Classroom. It is a pattern.
    Teacher. The kids will look for me oftentimes for the 
answer. And I can give the correct answer every time, but what 
I want them to do is to talk their way through the problem.
    Teacher in Classroom. Whisper to your neighbor what you 
notice about them.
    Teacher. We use a word at our school called ``discourse.'' 
And it is the ability for kids to communicate back and forth 
between each other, so that they can start to understand that 
problem or communicate it to me.
    Teacher in Classroom. Do you think this is still a pattern?
    Student in Classroom. No. If you just took this part off 
and put the green in the middle and then the blue on the top, 
it would be a pattern.
    Teacher in Classroom. This would be a pattern.
    Narrator. Since the new math curriculum was institute in 
2000, math test scores have soared. Now 98 percent of 3rd-grade 
students score at or above grade level. This despite the fact 
that the number of students on free and reduced lunch has also 
climbed to 60 percent.
    Dr. Garrison. When you look at children that have personal 
life struggles, too often adults make excuses and minimize 
their ability to learn. And one of the things----
    [End videotape.]
    Dr. Garrison. It played a little longer than we intended, 
and I guess my time is up. OK, I will slip in just another 
word.
    Although you were looking at math, what I want to share 
with you is the fact that it is not just math where achievement 
is up. Our reading scores are up and I know the emphasis on 
reading and math is a concern. What I am going to say is that 
by integrating curriculum, it makes much more sense for student 
learning. Consequently, we are reaching all of our kids and 
they aren't being shorted in any way.
    What is hurting us is the lack of adequate and stable 
funding. So if you were to address anything, that would be one 
thing that I would hope you would look at because I can say 
that we work very hard at what we do. The model that Mr. Miller 
caught on to when we met at the ranch in our district is 
whatever it takes.
    I can tell you that I do that personally every day and my 
teachers live it every day. The way we make our school work is 
by having a strong community engagement component, and we have 
a connection with businesses. We also do a lot of grant writing 
in order to get our needs met because with our current budget, 
we can't do that. It doesn't allow for it.
    We also have high expectations and part of that is a result 
of NCLB. In addition, I am going to say it is the standards 
that my staff set, as well as I have. I consulted nationally 
and I can tell you that I have been in almost every state in 
the union, prior to going back home to Roseburg and looking at 
being a building principal. I learned a lot within those 
travels.
    One of the things that I learned is that if we give 
teachers the tools that they actually need and give them the 
support by allowing them to do things like peer-to-peer 
observation and principals playing a role in going into 
classrooms to provide coverage, that you can look at effective 
programs with best practice, but it needs to be supported with 
actual research within the classroom. You can tie-in curriculum 
so that you have links so that you are empowering learners 
tremendously, and they are taking charge of their own learning.
    I want to just say that because of the population of 
students that we have, our families our very poor and their 
needs are great. However, their involvement in our school is 
huge. Back-to-school night is something that we celebrate with 
98 percent return of having our parents be there for us and for 
their children.
    We also feature some fun events like all schools do, but we 
have Fiesta Salsa Math Night where you get to actually learn to 
dance and learn a lot about math. We have Computer Tech Night. 
We have a read-in where we wear our pajamas, which is much more 
comfortable.
    [Laughter.]
    One of the keys to all of what we do is being creative with 
scheduling. I can tell you that we spend a lot of time in 
thinking outside the box and looking at how we utilize 
resources, educational assistance as well as teacher time. 
Tammy Rasmussen, a teacher who is here with me today, that you 
also saw in the video, is an amazing teacher who has 
rescheduled her life to meet children's needs. Her workday is 
supposedly not supposed to start with student contact until 
8:45 a.m.
    However, she starts a reading group at 8 o'clock in the 
morning so that we can integrate what is happening for kids, 
and that they can get the boosters that they need in order to 
have the foundational skills so that they can enjoy and 
celebrate the arts and enjoy music, and understand it even 
better.
    One of the things that I am going to again ask you to 
please look at is stable funding. It is very unpredictable in 
our state, and I can tell you our district does an amazing job 
of trying to distribute that money. But without adequate and 
stable funding, I can tell you that even though I write a lot 
of grants in every waking moment, I still can't get the needs 
met, although we are doing better than most.
    One of the key considerations that you alluded to in the 
intro was leadership. I am going to say that it is critical 
that administrators are the educational leaders within their 
schools, and that they are decisionmakers and sometimes make 
hard decisions.
    If you have ever read a great book called ``First, Break 
All the Rules,'' I think it was written about me. So if you 
look at success and you look at how to actually meet students' 
needs and support staff at the same time, you have to break the 
rules. That means that you have to step outside the box.
    We do a lot of extensive professional learning within our 
school and within our district. Within our school, we utilize 
staff meeting time for staff development. I empower my teachers 
to actually use that development time in teaching each other.
    If you are not familiar with peer-to-peer coaching, I would 
encourage you to look at it because it is truly the best way 
for teachers to learn about their profession from each other, 
and more importantly, for them to support each other and to 
have high-fidelity of implementation of programs within 
classrooms, which is beneficial to all learners, as well as to 
teachers professionally.
    In closing, we have received a lot of awards and a lot of 
achievements in the last 3 years since I have been at 
Fullerton, not just in math, but across the board. I ask that 
you look at our achievements and celebrate those with us, but 
also I ask that you look at what you can do to ensure that the 
struggles as far as funding can be minimized and maybe even 
reduced.
    Thank you.
    [The prepared statement of Dr. Garrison follows:]

   Prepared Statement of Mickey Garrison, Principal of Fullerton IV 
                       Elementary School, Oregon

School Overview
    Fullerton IV Elementary School takes pride in its reputation as 
innovative neighborhood school that has surmounted formidable economic 
and societal challenges to provide an optimal learning environment for 
its students. We do that by actively engaging our parents, students and 
teachers in programs that reach far outside the traditional curriculum.
    Our school is located in rural Douglas County, a county with one of 
the highest unemployment rates in the state. Students' families are 
typically low-income with limited employment opportunities in the 
immediate area. More than half (65%) of our students participate in the 
free and reduced lunch program. Fullerton IV also has a 
disproportionate number of special-needs children; current district 
figures put the number at 13%. Our school has the highest concentration 
of mentally challenged children in the district. In addition, we house 
the elementary behavior program for students with emotional and social 
challenges within our district.
    Oregon's distressed school funding system means that very few 
financial resources are available for supplemental programs and 
initiatives to help our students. We at Fullerton IV have chosen to 
find our own solutions, and we're doing that by building on our 
reputation as an innovative neighborhood school.
Community Engagement
    At the heart of our success is an outstanding record of school 
involvement by parents. When budget cuts eliminated many classroom aide 
positions, parents stepped in to fill the gap. When our business office 
did not have the personnel to perform many functions, volunteers signed 
up to answer phones, run the copy machine and man the front desk. The 
numbers tell the story--our Back-to-School Night for the past two years 
drew representatives from 98% of our students' families, and we expect 
the same level of participation at the Technology Night and Math Fiesta 
Night we schedule each year.
    Our students are active in the community and we feel that has a 
direct effect on their academic success. Students work on a wide range 
of projects that directly benefit the community, such as a landscaping 
project undertaken by our Student Council at the local baseball field. 
Our school also has structured community service activities that 
benefit fellow students. Peer tutors in our immediate grades, for 
example, tutor primary-level students in reading and math. Student 
``valets'' help others get into cars safely at our after-school pick-up 
site.
Common Threads
    Innovative programs are another key to our success. These range 
from the complex, such as our before-school program aimed at ensuring 
the success of more challenged students, to the simple, such as the 
``Music Minute,'' where students and teachers together listen to a 
daily dose of classical music that is integrated in art and math.
    We integrate our curriculum by effectively linking subjects like 
math, science, music, art reading, writing, and social studies to 
encourage learning within a known context. The challenge of teaching an 
integrated curriculum is structuring properly so as to teach the 
desired skill set. Shoemaker defines an integrated curriculum as 
education that is organized in such a way that it cuts across subject-
matter lines, bringing together various aspects of curriculum into 
meaningful association to focus upon broad areas of study. It views 
learning and teaching in a holistic way and reflects the real world, 
which is interactive (1989, p.5).
Effective Programs and Our Successes
    The success our programs have enjoyed has been recognized outside 
our school. Fullerton IV has been a demonstration site for schools in 
our district, state and out-of-state districts for our math program. 
Our math achievement won us the Schools of Distinction award, sponsored 
by Intel & Scholastic, in 2005. Fullerton IV also is Southern Oregon's 
demonstration site for an English program used in our classrooms, 
``Step-up-to-Writing.''
    These are just a taste of the programs and activities that have 
helped Fullerton IV become known throughout the district and state as a 
school that solves problems, and in doing so, creates a rich learning 
environment for its students.
    Improving the math performance of our students became a priority 
for Fullerton IV two years ago, after students' math scores 
consistently showed no improvement in state reports. In an effort to 
improve performance, we implemented several initiatives and programs 
that have never been done in our district before. Based on internal 
observations, parent involvement and teacher's comments, we felt we 
were successful.
    That observation was initially validated by the state of Oregon's 
2003-2004 School Report Card, which showed a marked improvement in all 
categories of math and reading test scores. Overall, Fullerton IV moved 
from a ``Satisfactory'' rating to a ``Strong'' rating. In the two math 
categories, knowledge and Skills and Problem Solving, our school 
outperformed comparison schools, district schools and state schools. 
Our achievement for 2004-2005 was an ``Exceptional'' rating and the 
same is true in 2005-2006. More specifically, our recent testing, which 
was just completed for 2006, reflects the following results: reading 
performance for 3rd graders was 96%, 4th 100%, and 5th grade scored a 
percentage of 94%. In mathematics, 3rd graders achieved 95%, 4th grade 
98% and 5th grade achieved 95%. In science our fifth graders overall 
performance was at 94%.
    At the heart of our effort is the before-school program we 
initiated with federal grant support. The program offers students an 
extra half-hour of academic support in the morning, before regularly 
scheduled school begins. The math portion consists of the computer-
based program PLATO Math Expeditions, an interactive and very popular 
program where learners become members of expeditions in which math 
concepts are connected to science, social studies, geography and 
history. This same approach is used in the reading portion of our 
program that consists primarily of Read Naturally and Earobics. Read 
Naturally focuses on fluency while Earobics emphasizes phonemic 
awareness.
    The school also has begun emphasizing technology programs that help 
with math learning, such as Math Facts in a Flash. This program allows 
students to assure mastery of math facts and computational fluency by 
allowing them to work at their own levels.
    Each grade levels has access to a Smart Board and Einstruction pads 
both of which encourage high student engagement and formative teacher 
assessment of student performance. The immediate performance feedback 
allows teachers to modify and adjusts instruction in split seconds.
    Another integral part of our success lies with family 
participation. We believe that involving parents is the key to our 
students' success. To that end, we have increased the opportunities 
parents have to become involved in their child's math education. At 
this year's Back-to-School Night, for example, we offered 15-minute 
mini-sessions that introduced parents to our integrated curriculum. The 
response was so enthusiastic--we had a 98% participation rate--that we 
are planning a series of ``Tech Nights'' to begin in early 2005 and 
2006, where families can explore the computer-based programs used in 
our efforts.
    And none of this could be accomplished without the enthusiastic 
participation of our teachers. We make a special effort to support our 
teachers as they try to improve their students' performance in the face 
of dwindling resources. Our staff meetings have become staff 
development opportunities, where teachers share observations and 
practices. These are put into practice in the classroom. The principal 
frequently covers classes so teachers can observe and coach each other.
    All of these efforts combined have turned the math program and 
overall student learning around at Fullerton IV, and resulted in a 
productive environment that, with the support of family, nurtures our 
students' learning ability.
Awards and Achievements
    We have much to be proud of beyond our ``Exceptional'' state 
achievement ratings. In 2005 we received the Mathematics Achievement 
Award through the Schools of Distinction (Intel & Scholastic Program) 
and also an Honorary Mention for our reading achievement through the 
Oregon Reading Association.
    2004 the National Citizenship Education Teacher Award--Fifth-grade 
teacher Linda Dwight won district-level recognition from the VFW for 
excellence in instruction. Her creative curriculum focuses on 
activities that explore our country's history and traditions, as well 
as on civic responsibility.
    2003 Distinguished Public Service Award--This annual award, granted 
by the City of Roseburg, recognizes the many community service 
activities of our students throughout the year. Student activities that 
contributed to this award include: the renovation of a room by our 
student council of a room in a community homeless shelter, landscaping 
of two city park areas, and yard care for the elderly in our school 
community.
    2002 Distinguished Public Service Award--This annual award, granted 
by the City of Roseburg, recognizes the many community service 
activities of our students throughout the year. Fullerton students 
received this award for adopting and maintaining the cleanliness of the 
streets immediately around our school and for landscaping a city park 
area.
    First place, Battle of the Book, 2002--Schools from throughout the 
Roseburg School District participates in this highly competitive 
contest. Battle of the Books requires students to spend many outside 
hours reading from a prescribed list of books. The competition 
culminates in a district-wide question-and-answer contest that 
determines the winner.

                             KEY REFERENCES

Caine, R. ``Making Connections: Teaching and the Human Brain.'' 
        Association for Supervision and Curriculum development (1992).
Shoemaker, B. ``Integrative Education: A Curriculum for the Twenty-
        First Century.'' Oregon School Study Council 33/2 (1989).
                                 ______
                                 
    Chairman McKeon. Thank you.
    Mr. Holt?

 STATEMENT OF FREDERICK G. HOLT, PRINCIPAL, LEWISTON K-8 SCHOOL

    Mr. Holt. Good morning, Mr. Chairman, members of the 
committee. I want to thank you for the opportunity to be here 
this morning to speak with you. It is a tremendous honor to be 
here this morning, especially since I didn't realize I was 
coming until Monday, so it has been quite a whirlwind of 
activity and excitement.
    And, again, it is an honor. I feel I am representing my 
school, my community and my entire state here this morning. And 
hopefully I can communicate with you some of what we have been 
through.
    I am the principal of a small school in rural northern 
lower Michigan that just a few years ago was designated a 
failing school. And currently today, we are designated an ``A'' 
school. It has been quite a journey to get from there to where 
we are now, and hopefully I can bring some of that to you here 
this morning.
    The Lewiston Elementary-Middle School is the only school 
located in the town of Lewiston. We are about 200 miles north 
of Detroit. Very limited employment opportunities in our area, 
and currently the unemployment rate is about 11.5 percent. Our 
school houses about 350 students in grades kindergarten through 
8. Our district is a consolidated district. We have joined with 
a neighboring town, Johannesburg, and we serve a total area of 
about 310 square miles, for a total of 875 kids in grades K-12.
    Now, going back a little bit to the mid-1990's, our school 
was designated by the state of Michigan as a chronically low-
and under-performing school. And when that long and almost 
poetic-sounding label was attached to us, it took a little bit 
of thought and thinking before we realized what it really 
meant, and it wasn't good.
    It really, really, in a positive way, brought out the best 
in my staff, because it wasn't long before we decided enough is 
enough. We are not chronically low-or under-performing. The 
people in our building, the students, the people in our 
community are too good for that. So that was kind of a 
beginning for us, a catalyst to really, really bring about some 
change.
    As I said, right now in 2006, we have a rating of ``A'' for 
our elementary grades and a rating of ``A'' also for our middle 
school grades. And there is a lot of pride in our building and 
in our community over that.
    Our journey from chronically low-and under-performing 
really began with a real, real purposeful and systematic look 
at student performance data; a real, real deep analysis as to 
how our students were doing in the different subject areas, all 
the subject areas. As we did this, it became very obvious to us 
that reading was an area that we absolutely had to improve upon 
if our students were going to have a chance to do well in 
anything else.
    The problem or the challenge at that point was how we would 
take our passion, our desire, our energy, our motivation and 
turn it into effective change in instructional practice. Well, 
progress got moving and it got moving along slowly. At the 
district level, we formed a district-wide school improvement 
committee. We formed a community-wide group which we called the 
stakeholders, which has a large number of community members, 
community leaders, about 70 people. That group still meets 
today.
    Progress really began. Our state test scores were still 
low. We were still having problems, but by the year 2000, we 
received an award from the state of Michigan called the Golden 
Apple Award for being among the most improved schools in the 
state on the state test scores. We still weren't anywhere near 
the best. We weren't anywhere near where we felt we needed to 
be, but we were among the most improved.
    With that award also came a state investment of $50,000 
from the state of Michigan to put toward school improvement. 
That is when things really got rolling. Our staff, at this time 
we were absolutely committed to the systematic and regular 
review of student performance data. We got together as a team, 
as a unit and built the school improvement plan around 
professional development, around making ourselves better 
teachers, making ourselves better at what we do each and every 
day.
    So we developed a school improvement plan around 
professional development, sent out RFPs to all the major 
universities, the intermediate school districts in the area, 
anybody that we knew that could possibly come in and work with 
us to make us better at what we do.
    We heard back from some of those, and drew up contracts 
with the best of them and designed a program where professional 
development was brought into our building. We didn't send 
people out to conferences once a year to go and maybe listen to 
some good speakers and hear what they had to say, and then come 
back and eventually end up doing what they had always done in 
the classroom. We brought the professional development to us.
    Through this whole process, again the test is always how 
well the students are doing. We are always going back to the 
data. Is it impacting student performance? Because if it is 
not, we are going to do something else. If it is, we are going 
to do it and we are going to do more of it.
    Our work on quantifying, refining, and improving our 
teaching and learning has not been at the expense of other 
areas of the curriculum besides reading and math. I mentioned 
reading as a glaring area of need. We have been able to do 
other things in our district as well.
    We offer our kids a fully rounded program including 
physical education, health, music, art, library and computer 
classes for the kids in kindergarten through 8th grade. I have 
to add also we just put a climbing wall in our building too, of 
which we are really proud. I may put my P.E. teacher in touch 
with you about things to do with it, so a little connection 
here.
    Our students are offered a lot of opportunities to attend 
field trips in different areas. At our local community college, 
they go to theatrical productions. They take an annual trip 
down to Lansing every year to see the state capitol, and we 
take our 8th-graders up to Lake Superior State University in 
Sault Ste. Marie for a little taste of college life.
    Our turnaround and our success in Lewiston have only been 
possible with the support, belief and financial investment of 
the Johannesburg-Lewiston area schools, the state of Michigan, 
and also the Federal Government as well. But here we are now, a 
few years into our program, and it is really time, as Dr. 
Garrison mentioned, for the peer-to-peer observations and some 
of the other things now. The impetus really falls on us and the 
building staff to continue this process.
    What I didn't mention a few years ago was in addition to 
the $50,000 investment from the state, we received a 
comprehensive school reform grant, which is a Federal grant, 
which brought in a lot of professional development into our 
building. It really, really took off. That is a 3-year grant, 
and we are in year 3. It is all done, so now it is up to us.
    So what we are doing right now is setting up a program so 
that the professional development, the momentum, the energy, 
the improvement continues, but it has to continue within the 
building, within our staff, and the power that we have 
developed through our years of training.
    I want to again conclude by thanking you, Mr. Chairman and 
members of the committee, for the opportunity to share my 
passion for education, and also for my school, with you this 
morning. I hope I was able to in some small way paint a picture 
of the journey that we have been through and the value of high-
quality, data-driven onsite professional development that has 
been a huge, huge difference in our building.
    Thank you.
    [The prepared statement of Mr. Holt follows:]

     Prepared Statement of Frederick G. Holt, Principal, Lewiston 
 Elementary/Middle School, Johannesburg-Lewiston Area Schools, Michigan

    Good morning Mr. Chairman and members of the Committee. Thank you 
for affording me the opportunity to speak with you this morning. It is 
indeed a tremendous honor to represent my school, my community and my 
state before you in this hearing. I hope to describe for you some of 
the things I have experienced as the principal of a small, rural school 
in northern Lower Michigan. I believe we have been successful at 
developing and delivering a program to our students that is focused on 
meeting standards without sacrificing the fine arts or co-curricular 
activities. Over the past several years, we have journeyed from being 
labeled a ``failing school'' to being designated as an ``A'' school. I 
hope I can effectively describe some of that journey for you this 
morning.
School and Community Information
    The Lewiston Elementary-Middle School is the only school located in 
the small town of Lewiston, Michigan. Lewiston is located approximately 
200 miles north of Detroit. Employment opportunities include some light 
manufacturing, logging, oil and gas exploration, and service industries 
catering to tourism. Currently, the unemployment rate in Montmorency 
County, where Lewiston is located, is 11.5%.
    The Lewiston School houses approximately 350 students in grades k 
through 8. After the conclusion of the 8th grade, Lewiston students go 
to the neighboring town of Johannesburg, 16 miles away, for high 
school. The Johannesburg School is a k-12 building which houses 
Lewiston's sister school, the Johannesburg Elementary-Middle School, 
and the Johannesburg-Lewiston High School. The communities of 
Johannesburg and Lewiston consolidated in the mid-1960's to form the 
Johannesburg-Lewiston Area Schools. The Johannesburg-Lewiston Area 
Schools district covers approximately 310 square miles and provides for 
the education of approximately 875 students k-12.
Background Information
    In the mid-1990's the Lewiston School was designated a 
``chronically low and under performing school'' by the Michigan 
Department of Education. Student performance on the Michigan 
Educational Assessment Program (MEAP) was inconsistent at best, with 
some subject areas finding only single digits in the percentage of 
students meeting the state standards. In addition to the poor 
performance on the state assessments, student grade point averages were 
low and the number of referrals for student discipline incidents was 
extremely high.
Lewiston School in 2006
    Currently, the Lewiston School has a Michigan Department of 
Education rating of ``A'' for its elementary grades and ``A'' for its 
middle school grades. Additionally, there is a renewed sense of pride 
in the community and within the building. Other measures of success 
include receipt of the state's Golden Apple Award in the year 2000, and 
an invitation for a team of staff members to present at the state's 
Comprehensive School Reform conference this past winter. Adding to the 
feeling of pride and success in the Lewiston School is the number of 
students from neighboring communities attending school in Lewiston as 
``school of choice'' students. None of these measures of success seemed 
possible in the mid 1990's.
Our Journey
    The journey from ``chronically low and under performing'' to 
success began with the teaching staff. After reviewing student 
performance data in the core subject areas, particularly reading, it 
became obvious to everyone on the staff that the responsibility for the 
current state and the responsibility for change laid within us. This 
acceptance of responsibility by the staff was coupled with a passionate 
desire to improve and accept nothing less than excellence. The 
challenge at that point was to move the staff's passion, energy and 
motivation into real and effective change in instructional practice.
    Progress began to build slowly at the district level in 1997 with 
the formation of a district wide school improvement committee comprised 
of school staff, parents and community leaders. The District School 
Improvement Committee was born of a ``stakeholders'' meeting where a 
large number of community leaders gathered, brainstormed and 
established goals for the district's schools. Approximately 70 
community members participated in that first stakeholders meeting. The 
stakeholders continue to meet annually each winter to review the 
district's progress.
    Although MEAP scores were inconsistent and low, by the year 2000 
they were beginning to show signs of improvement. The improvement 
reached a point high enough for the school to be designated a ``Golden 
Apple Award'' winner in the year 2000. The award was for improvement on 
the MEAP tests and it came with an investment of $50,000.00 from the 
State of Michigan. That investment was to be put toward school 
improvement, and so it was.
    Through the regular and systematic review of student performance 
data, areas of need as well as areas of progress became apparent. 
Reading still stood out as a glaring area of need. The building school 
improvement team, comprised of approximately 50% of the teaching staff, 
developed a professional development plan centered on the entire 
teaching staff being trained, on-site, by the best professional 
development providers available. RFP's were sent to several major 
universities, intermediate school districts and other potential 
professional development providers. Several experts in the area of 
literacy and curriculum development responded and contracts were made 
with the best of them. Crucial to the professional development plan was 
the use of student performance data as our measure of success and the 
ultimate tool of accountability. The professional development providers 
were to be held accountable just as we were holding ourselves 
accountable.
    Shortly after the professional development plan was put into 
effect, the Lewiston School received another boost in the form of the 
Comprehensive School Reform Grant. The CSR Grant, a federal grant 
administered by the Michigan Department of Education, increased the 
investment into the Lewiston School to over $80,000 annually for three 
years to be put toward professional development. The grant allowed the 
professional development of the teaching staff to move into high gear 
through the formation of a partnership with Michigan Middle Start. 
Michigan Middle Start provided on site training for all teachers in 
literacy and mathematics, as well as the development of higher order 
thinking skills on the part of the students. The literacy training has 
included the use of reading comprehension strategies for all content 
areas including science, social studies and math. There has been a 
building wide effort to encourage the students to write in mathematics 
as well as in the language arts. The training with Middle Start has 
included a big push toward the development of a professional learning 
community, where the school staff takes the initiative and 
responsibility for their own learning. This aspect of our growth is of 
particular importance as we wind down the third and final year of our 
CSR experience. It is now our responsibility to continue the growth and 
development we have experienced the last several years. It is our 
responsibility to mentor and challenge new teachers who join our team. 
We are a building made up of people committed to success. There are no 
independent contractors; there are no ``one room school houses'' in our 
school. Our continued growth and development will be monitored, as 
always, through the lense of student performance.
    Our attempts to purposefully quantify, refine and improve teaching 
and learning have not been at the expense of other, broader areas of 
the curriculum. Due to the support of our local Board of Education and 
superintendent Jim Hilgendorf, we have been able to offer our students 
a well rounded educational program which includes physical education, 
health, music, art, library and computer classes for all students in 
kindergarten through eighth grade. Additionally, an advisory program 
has recently been added to our middle school. Modeled after a long-time 
successful advisory program in the Johannesburg Middle School, our 
advisory program brings students together in groups of varying ages and 
abilities. Advisory classes meet weekly for activities that are 
designed to create a community within the student body and to inject a 
little bit of fun in to the school lives of our middle school 
youngsters. The advisory program involves projects and activities that 
sometimes enlist the help of parents and community volunteers. Just 
last week we completed a program that gave the students the chance to 
participate with teachers and community volunteers in activities such 
as painting, jewelry making, cooking, dance, team sports, and guitar 
playing. We also are able to offer our students a variety of field 
trips despite the distance involved in most cases. Students are offered 
opportunities to attend theatrical productions at a not too far away 
community college, to visit the state capitol in Lansing, and to get a 
taste of college on an annual trip to Lake Superior State University 
for our eighth graders. I hope I don't sound too much like I'm trying 
to sell my school, but I'm very proud of my students, staff and 
community.
    Our turnaround and success at the Lewiston School has only been 
possible with the support, belief and financial investment of the 
Johannesburg-Lewiston Area Schools Board of Education, the State of 
Michigan and federal government.
What's Next
    As I mentioned earlier, it is now our challenge to continue our 
track towards academic excellence without the level of support we've 
had the last three years through the Comprehensive School Reform Grant 
and Middle Start. Our current focus is on the sustainability of the 
momentum we've generated. Our goal is to remain on a trajectory that 
will allow us to meet the challenges of rising student performance 
standards presented by ``No Child Left Behind.'' Our plan is to use the 
expertise that we have developed within our building with the help of 
Middle Start and other professional development providers with whom we 
have worked. Our professional learning community of teachers will now 
be faced with the task of passing on the knowledge and skills they have 
gained to the new teachers who join us in the years to come. As has 
been the case since the beginning of our journey, we will hold 
ourselves accountable through the close examination of our student 
performance data, and we will accept nothing less than excellence out 
of ourselves.
Conclusion
    I want to conclude by again thanking you Mr. Chairman and members 
of the Committee for the opportunity to share my passion for education 
and for my school with you this morning. I hope I was able to convey to 
you my firm belief in the value of high quality, data driven, on-site 
professional development. I also want to close by reinforcing the 
importance of our staff's buy-in and active participation in our school 
improvement efforts. As a principal I am extremely fortunate to work 
with a talented and motivated staff that has been given sufficient 
time, resources and support to achieve what a few years ago seemed 
impossible.
    Again, thank you Mr. Chairman and members of the Committee.
                                 ______
                                 
    Chairman McKeon. Thank you.
    Ms. Ablott?

STATEMENT OF ELIZABETH ABLOTT, TEACHER, ARLINGTON SCIENCE FOCUS 
                             SCHOOL

    Ms. Ablott. Mr. Chairman, members of the committee, it is 
an honor to appear before you today to share my experiences 
with you as a science resource teacher in Arlington Public 
Schools in Virginia. Weare right across the river, and we would 
love to invite you to come over and visit us during the 
implementation of No Child Left Behind.
    I have been in elementary education for 8 years, currently 
teaching at Arlington Science Focus School, which has a diverse 
student population with children from five different 
continents; 41.1 percent of our students are non-Caucasian and 
27.8 percent receive free and reduced lunches. We are one of 14 
schools where parents apply to have their children attend our 
school in order to receive more science education.
    While we are a public school and held accountable to all of 
No Child Left Behind guidelines, we do center our teaching and 
apply science learning throughout the school day and across all 
curricula. It seems that under the requirements of NCLB, many 
schools have focused on reading and math instruction because 
that is where the testing is required by NCLB.
    My experience, however, has not been so dramatically skewed 
and perhaps that is because I work at a science focus school. 
We have embraced the concept of children as scientists and 
engineers from our opening in 1994. Virginia, especially 
Northern Virginia, has always valued science instruction and in 
fact the standards of learning in state assessments in science 
have been in place for years.
    I am fortunate to work in a school district that believes 
in a strong framework, while allowing the individual teachers 
and schools flexibility in curricula selection and instruction, 
as long as it meets the state standards. A good example of this 
can be found in the Children's Engineering Program that we have 
at Arlington Science Focus School.
    This program uses design briefs to create problem-based 
learning opportunities for students. This open-ended 
explorations encourage inquiry learning. They take advantage of 
what we know about the cognitive process, allowing the students 
to own their knowledge.
    There is a great deal of discussion these days about the 
importance of innovation and the need for creative thinking. I 
know of no better way to encourage those skills than through 
the student-directed learning environments of children's 
engineering where students problem-solve on a daily basis 
across all curricula.
    Many would tell you that this is all fine, but we have no 
time in our daily schedules to teach science, let alone teach 
it in an inquiry-based manner. To be sure, the demands of NCLB 
and the need to meet annual targets in student achievement take 
their toll on our weekly lesson plans. But I have found through 
my own personal experience that science is a powerful motivator 
for students.
    It is through integrated curricula that we are able to 
bring science into the everyday world. We are able to expand 
science, not shrink it. We are able to encourage students' 
curiosity, not stifle it. And we are able to raise student 
achievement, not slow it down.
    I recently introduced my teachers in my school to 
Engineering Is Elementary. This is a series of storybooks 
developed by the National Center for Technological Literacy at 
the Museum of Science in Boston, featuring children from around 
the world that encounter real problems that are solved with the 
assistance of an adult engineer in their community.
    These books are not add-ons, but add-ins to our curricula, 
where each unit is aligned with commonly taught science topics 
and kits. Through the use of this literature, the classroom 
community is able to share the vocabulary and concept to build 
background knowledge to further understand science concepts.
    The series provides accompanying lesson plans that are 
multi-disciplinary, including literacy lessons, exposure to new 
cultures, the engineering design process, science data 
collection, and application of game knowledge in developing 
their own solutions to the problems encountered by the 
storybook character. This is one example of interdisciplinary 
learning that provides relevance to science and mathematical 
concepts with which students will often struggle.
    When we became a science focus school in 1994, we developed 
a core program called Science City. Every Wednesday morning, 
every teacher in the school, including reading, music, physical 
education, special ed, and librarians, teach science to a small 
group of students. The teachers plan four lessons on a concept 
outlined by the Virginia standards of learning and appropriate 
for each grade level.
    The students then spend a year rotating through the seven 
Science City groups in 4-week cycles. In this manner, the 
students observe, experience and value the fact that every 
teacher teaches science, and science is important to the staff. 
Science isn't just my job; it is every teacher's job.
    Another example of creative integration is our music 
program led by Mr. Puzzo. He collaboratively works with all the 
grade levels to provide science instruction musically to our 
students. One example is the 2nd-grade program entitled ``We 
Matter.''
    We planned with the grade-level teachers how to integrate 
the science concepts of the states of matter across the 
curriculum into the music program, the science resource room, 
investigation station where I teach, and the science lessons 
taught in the homeroom classroom. The students have come away 
from the program singing the songs and understanding the 
concepts, and some of them years after the program have come 
back singing the songs.
    While I recognize that there are districts that suffer from 
low scores in math and reading, and they feel the need to focus 
solely on these topics in order to meet the requirements of 
annual yearly progress, they do so to the detriment of other 
critical subjects. Doing this is sort of an academic rob Peter 
to pay Paul.
    A typical view of education is one of a series of subjects 
taught sequentially in 40-minute blocks, and then on to the 
next subject. Under that paradigm, I see it is easy to see that 
adding time to one subject reduces time for another. We spoke 
to this earlier, and how our life is not segregated into math 
and science and language arts. It is an integrated program in 
our life and we need to integrate our curricula to go with 
that.
    This type of curricula is wonderful for children with 
limited English language skills. They can participate and 
demonstrate their understanding, even if their oral and written 
skills are not proficient. What is more, students are able to 
build a sense of scientific literacy about the world in which 
they live and the way in which humans affect that world.
    Speaking of literacy, in order to integrate science into 
every classroom, my colleagues often use non-fiction books, 
primarily science, to lead their guided reading instruction. 
Every classroom library has equal numbers of science books, 
fairy tales, social studies books and picture books. The 
students use these nonfiction topics, often science-oriented, 
in their monthly writing prompts.
    Subconsciously, children learn to value the content that 
the teachers value because they see that the teachers believe 
science is important enough to become woven throughout the 
school day. They recognize that science must be important to 
them.
    A thought for you to consider in regards to the 
reauthorization of NCLB: If science literacy is a key to the 
future success of America, if keeping the United States 
competitive is critical to our national economy, then science, 
along with technology, engineering and mathematics, it must be 
treated as a core subject.
    I was pleased to learn that the NAEP Science 2009 framework 
will include questions relating to technological literacy, as 
outlined in the NRC's national science education standards. As 
states revise their science assessments, I think it would be 
wise to similarly measure technological design skills. These 
are the skills we need to foster in our students if we want 
them to become innovators and solve problems, to create new 
frontiers of science and technology.
    As you begin the process of reauthorizing the NCLB, you 
will be confronted with the emerging needs of science. Reading 
may have been first and math is now, but science is coming. The 
U.S. Department of Education and states are beginning to zero 
in on science because NCLB will require science to be tested in 
the 2007-2008 school year. This is surely a good thing.
    While many districts and states already have state 
assessments in place, my concern is that there is no measure of 
progress required, as with the AYP in reading and math. While I 
may work at a school in a district where science is valued, I 
worry that administrators and many educators will not invest 
enough effort in science achievement if there are no incentives 
or consequences attached to the assessments.
    In closing, let me leave you with this thought. Is 
innovation necessary in America? Absolutely. Is innovation 
necessary in the elementary classroom? Absolutely. Teachers are 
by necessity innovators, looking for ways to teach reading, 
math, science and social studies in real-world situations to 
help our students grasp the learning. Using science as a medium 
provides children a platform where we can open their eyes to 
learning that makes sense.
    I feel fortunate that I am able to share my excitement and 
enthusiasm about science with the students of my school. 
Integrating science across the curriculum has shown my 
colleagues and me that given the right environment, we can open 
eyes and minds of our students to the possibilities of a bright 
and challenging future.
    Thank you very much.
    [The prepared statement of Ms. Ablott follows:]

   Prepared Statement of Elizabeth Ablott, Science Resource Teacher, 
                   Arlington Public Schools, Virginia

    Mr. Chairman, members of the Committee, it is an honor to appear 
before you today to share my experiences with you as a science resource 
teacher in the Arlington Public Schools, in Virginia, during the 
implementation of No Child Left Behind. I have been in elementary 
education for eight years, currently teaching at Arlington Science 
Focus School, which has a diverse student population including children 
from five continents. 41.1% of our students are non-Caucasian and 
27.80% receive free and reduced meals. We are one of four team schools 
where parents apply to have their children attend our school, to 
receive more science instruction. While we are a public school and held 
accountable to all of No Child Left Behind (NCLB) guidelines, we do 
center our teaching and apply science learning throughout our school 
day and across all curricula.
    It seems that under the requirements of NCLB, many schools have 
focused on reading and math instruction because that is where the 
testing is required by NCLB. My experience, however, has not been so 
dramatically skewed, perhaps because I work at a science focus school. 
We have embraced the concept of children as scientists and engineers 
from our opening in 1994. Virginia, especially Northern Virginia, has 
always valued science instruction and, in fact, the Standards of 
Learning and state assessments in science have been in place for years.
    I am fortunate to work in a school district that provides a strong 
framework while allowing the individual teachers and schools 
flexibility in curricula selection and instruction as long as it meets 
our state standards. A good example of this can be found in the 
Children's Engineering program at Arlington Science Focus School. This 
program uses ``design briefs'' to create problem based learning 
opportunities for students. These open-ended explorations encourage 
inquiry learning. They take advantage of what we know about the 
cognitive process allowing the students to ``own'' their knowledge. 
There is a great deal of discussion these days about the importance of 
innovation and the need for creative thinking and I know of no better 
way to encourage those skills, than through the student directed 
learning environments of Children's Engineering where students problem 
solve on a daily basis across all curricula.
    Many would tell you that this is all fine but we have no time in 
our daily schedules to teach science, let alone teach it in an inquiry 
based manner. To be sure, the demands of NCLB and the need to meet 
annual targets in student achievement take their toll on our weekly 
lesson plans. But, I have found through my personal experiences that 
science is a powerful motivator for students. It is through integrated 
curricula that we are able to bring science into the everyday world: we 
are able to expand science not shrink it, we are able to encourage 
students' curiosity, not stifle it, and we are able to raise student 
achievement, not slow it down. I recently introduced teachers in my 
school to ``Engineering is Elementary.'' This is a series of storybooks 
developed by the National Center for Technological Literacy at the 
Museum of Science, Boston, featuring children from around the world 
that encounter real problems that are solved with the assistance of an 
adult engineer in their community. These books are not add-ons but 
rather add-ins to our curricula where each unit is aligned with 
commonly taught science topics and kits. Through the use of literature, 
the classroom community is able to share the vocabulary and concepts to 
build background knowledge to further understand science concepts. The 
series provides accompanying lesson plans that are multi-disciplinary 
and include literacy lessons, exposure to new cultures, the engineering 
design process, science data collection, and application of gained 
knowledge in developing their own solution to the problem encountered 
by the storybook character. This is one example of interdisciplinary 
learning that provides relevance to science and mathematical concepts 
with which students so often struggle.
    When we became a science focus school in 1994, we developed a core 
program called ``Science City''. Every Wednesday morning, every teacher 
(including reading, music, physical education, special education, and 
all other resource teachers) teach science to a small group of 
students. The teachers plan four lessons on a concept outlined by the 
Virginia Standards of Learning and appropriate for each grade level. 
The students then spend the year rotating through the seven Science 
City groups, in four week cycles. In this manner, the students observe, 
experience, and value the fact that every teacher teaches science and 
science is important to the staff. Science isn't just my job, it is 
every teacher's job.
    Another example of creative integration in order to teach the 
science content in a timely and meaningful manner, is our music program 
led by Mr. Joe Puzzo. Mr. Puzzo works collaboratively with all grade 
levels to provide science instruction, musically, to students. One 
example is the second grade program entitled, ``We Matter''. Mr. Puzzo 
and I planned with the grade level teachers how best to integrate the 
science concept of states of matter across the curriculum, into the 
music program, the science resource room (called Investigation Station 
where I teach), and the science lessons taught in the homeroom 
classroom. The students have come away from the program, singing and 
recalling the concepts, years later. He has provided other musicals for 
multiple grade levels: third grade recently performed one on simple 
machines, kindergarten on animals using literature from author Leo 
Lionni as the basis for the program, and we will develop a program this 
summer for fifth grade on sound and light.
    While I recognize that there are districts that suffer from low 
scores in math and reading, and they feel the need to focus solely on 
those topics in order to meet the achievement goals of Annual Yearly 
Progress (AYP), they do so to the detriment of others critical 
subjects. Doing this is a sort of academic ``robbing of Peter to pay 
Paul''. The typical view of education is one of a series of subjects 
taught sequentially, in 40 or 50 minute blocks and then on to the next 
subject. Under that paradigm it is easy to see that adding time to one 
subject reduces the time for another. I don't believe that education 
is, or should be, a zero sum game where the subjects are separate and 
distinct and have to be learned in some form of artificially 
partitioned blocks of time. Life very seldom comes to us that way. We 
use math, science, language arts, civics every day and rarely are they 
distinctly separate blocks of our day. That is why I believe a more 
integrated curricula is a better model. By tying math and science 
together with relevant hands-on activities in real-world situations, 
children will absorb and retain the concepts better. This type of 
curricula is also wonderful for kids with limited English language 
skills. They can easily participate and demonstrate their 
understanding, even if their oral and written skills are not 
proficient. And what's more, students are able to build a sense of 
scientific literacy about the world in which they live and the way in 
which humans affect that world.
    Speaking of literacy, in order to integrate science into every 
classroom, my colleagues often use non-fiction books, primarily 
science, to lead their guided reading instruction. Each classroom 
library has equal numbers of science books, fairy tales, social studies 
books, and picture books. The students use non-fiction topics (often 
science oriented) in their monthly writing prompts. Subconsciously, 
children learn to value the content that the teachers value. Because 
they see that the teachers believe science is important enough to 
become woven throughout their school day, they recognize that science 
must be important to learn.
    A thought for you to consider in regards to the reauthorization of 
NCLB: if science literacy is a key to the future success of America; if 
keeping the United States competitive is critical to our national 
economy, then science along with technology engineering and mathematics 
must be treated as core subjects. I was pleased to learn that the NAEP 
Science 2009 framework will include questions relating to technological 
literacy, as outlined in the NRC's National Science Education 
Standards. As states revise their science assessments, I would think it 
would be wise to similarly measure technological design skills. These 
are the skills we need to foster in our students if we want them to 
become innovators, to solve problems, to create the new frontiers of 
science and technology.
    As you begin the process of reauthorizing the NCLB you will be 
confronted with the emerging needs of science. Reading may have been 
first and math might be now, but science is coming. The U.S. Department 
of Education and the states are beginning to zero in on science because 
NCLB will require science to be tested in the 2007-08 school year. This 
is surely a good thing. And while many districts and states already 
have science assessments in place, my concern is that there is no 
measure of progress required of the science assessments, as with (AYP) 
in reading and math. While I may work at a school and in a district 
where science is valued, I worry that administrators, and many 
educators, will not invest enough effort in science achievement if 
there are no incentives or consequences attached to the assessments.
    Finally, with respect to teacher preparation, certification and 
professional development, please don't forget the elementary teachers, 
who, by the nature of their classroom, must be masters of integrated 
curricula. Elementary teachers need extensive professional development, 
particularly in the field of science. Often these teachers are hesitant 
to teach science because of lack of confidence in the content areas. 
While our students score well on international tests in the elementary 
grades, imagine where they would fall if our teachers had a deeper 
understanding of the content areas.
    In closing let me leave you with this thought. Is innovation 
necessary in America? Absolutely! Is innovation necessary in the 
elementary classroom? Absolutely! Teachers are by necessity innovators 
looking for ways to teach reading, math, science, and social studies in 
real world situations to help our students grasp the learning. Using 
science as the medium provides a platform from which we can open the 
eyes of students to learning that makes sense. I feel fortunate that I 
am able to share my excitement and enthusiasm about science with the 
students of my school. Integrating science across the curriculum has 
shown my colleagues and me that given the right environment we can open 
the eyes and minds of our students to the possibilities of a bright and 
challenging future.
                                 ______
                                 
    Chairman McKeon. Thank you.
    Mr. Zeigler?

STATEMENT OF RAY ZEIGLER, CO-DIRECTOR, MARYLAND ARTIST/TEACHER 
       INSTITUTE, MARYLAND STATE DEPARTMENT OF EDUCATION

    Mr. Zeigler. Good morning, Mr. Chairman, members of the 
committee. My heart was warmed to hear so many people mention 
the arts, because that is what I am going to talk about, 
integrating the arts into the curriculum.
    At the Maryland Artist/Teacher Institute, MATI, elementary 
and middle school teachers and administrators come together in 
school teams to experience dance, music, theater, the visual 
arts, poetry, puppetry, playwriting and other forms of artistic 
expression. Teachers who previously thought they had no 
artistic abilities find the joy of expressing themselves in 
ways they had never tried before.
    Through the use of trained artists and facilitators, they 
explore the natural connections among the arts and other 
subject areas which they teach, whether they be math, science, 
physical education, social studies or any other content area.
    MATI empowers educators to use the natural connections 
among the arts and other academic disciplines to enhance 
learning. Every child is engaged in learning. The key word is 
``engaged.''
    Some examples: Over the past 2 years, we have been using 
literacy as a focus. The artists choose a book that is used in 
many schools and teachers learn ways to explore that book 
through the arts. We recently produced a 15-minute DVD, which 
there isn't time to show, but I will leave copies that I hope 
you will have a chance to look at, that shows what this program 
does.
    The company went out into schools. They interviewed 
students, parents, administrators and teachers. We think it is 
pretty powerful and we got Charles Osgood to narrate it. One 
parent commented on here that the teacher was having difficulty 
teaching her 4th-grade child the angles until she though, ``Oh, 
I went to MATI; we are going to dance.'' And they got them out 
of their chairs and they choreographed a dance around angles. 
And she said, ``They remembered it.''
    Many of our schools produce operas. Elementary students 
under the guidance of teachers learn how to write a script, 
build the sets using math; design lighting, principles of 
electricity; write and perform the music; design the costumes; 
design and sell tickets, art and math. The children learn to 
cooperate and compromise as necessary for the good of the 
whole. In doing so, their communications skills are enhanced.
    In other words, they are involved in all phases of 
producing a stage work that not only incorporates all of the 
fine arts, it includes related content and life skills as well. 
One 4th-grader said, ``For opera, you need a lot of writing 
skills and you learn a lot of new vocabulary.''
    These are just a few examples of who the arts motivate 
people to learn. In a recent publication by the Arts Education 
Partnership, ``Third Space: When Learning Matters,'' I would 
like to read just a short quote: ``School district officials in 
Tucson and teachers at Peter Howell Elementary credit the 
school's integrated arts programs for the improved scores of 
students on Arizona standardized tests, including improvement 
in reading and mathematics. District officials commissioned an 
evaluation that shows the Opening the Minds Through the Arts 
Program used at Peter Howell has had similar effects at other 
schools in the district. Based on these results, the program is 
being considered for adoption statewide.''
    In Montgomery County, Maryland, Congressman Van Hollen's 
district, we have three arts-focused schools, and one of the 
principals of one of those schools, John Shashini, is featured 
on this DVD. He right now is in Taiwan sharing what we do with 
arts integration in the state of Maryland.
    Other schools in Maryland are increasing their use of the 
arts because they have experienced the positive effects the 
arts provide their students. Educators learn the impact of 
integrating the arts into their curricula on student 
achievement, self-esteem, school climate, school attendance, 
and teacher retention, based on evidence revealed in recent 
research and are own formal evaluations.
    Integration also recognizes the diversity of learning 
styles in children. The arts can open new pathways that 
correspond to individual learning styles and make it possible 
for the teacher to engage every child in active learning. All 
of this comes together to improve student achievement. Research 
by Catterall, Capleau, and Iwanga has shown that low-income 
students who have opportunities to regularly participate in the 
arts, fared better in other academic areas than those who were 
low-participators in the arts.
    Another study by Heath and Roach showed that low-income 
youth fared better across a wide range of variables from 
academic achievement to developing leadership skills when the 
arts were a part of their lives. The arts develop skills and 
talents that foster imagination, critical thought, and 
teamwork.
    These skills are transferable to the workplace. In 1999, a 
study of 91 school districts in 42 states found that the arts 
contribute significantly to the creation of the flexible and 
adaptable workers that businesses demand to compete in today's 
world economy.
    In April, 42 of our participants traveled to Milan for a 1-
week experience to experience the arts of Italy. In July, MATI 
will serve almost 200 Maryland teachers, and we are going to 
have to turn a lot away, and administrators, and an additional 
25 from Italy, through an agreement with the Italian Cultural 
Society of Washington, D.C.
    Compartmentalization of academics prevents students from 
seeing the natural connection among content areas. After all, 
life is an integrated experience. A truly rich educational 
experience will help provide connections to enrich the life of 
every child.
    I want to thank the committee for your interest and for 
providing this opportunity. Through using best practices in 
arts education and integration, we will help to ensure that no 
child is left behind.
    Thank you.
    [The prepared statement of Mr. Zeigler follows:]

Prepared Statement of Ray Zeigler, Fine Arts Specialist, Maryland State 
                        Department of Education

    Good morning Mr. Chairman and members of the Committee. Thank you 
for this opportunity to focus on the integration of subject matter in 
our schools in order to improve student achievement. My focus will be 
on integrating the arts into other content areas.
    At the Maryland Artist/Teacher Institute (MATI), elementary and 
middle school teachers and administrators come together in school teams 
to demystify and experience dance, music, theatre, the visual arts, 
poetry, puppetry, playwriting, and other forms of artistic endeavors. 
Teachers who previously thought they had no artistic abilities find the 
joy of expressing themselves in ways they had never tried before. 
Through the use of trained artists and facilitators they explore 
natural connections among the arts and the other subjects they teach 
whether they are math, science, physical education, social studies, or 
any other content area. MATI empowers educators to use the natural 
connections among the arts and other academic areas to enhance 
learning. Most of them leave motivated to try new approaches that they 
find engage their students in the total classroom experience. Using 
national, state, and local standards, they find authentic ways to 
incorporate the arts into their classrooms. Arts specialists serve new 
roles in their schools as resources for ideas as well as helping to 
maintain the integrity of the art forms.
    Educators learn the impact of integrating the arts into their 
curricula on student achievement, self-efficacy, self-esteem, school 
climate, student attendance, and teacher retention based on evidence 
revealed in recent research and our own formal evaluations. Integration 
recognizes the diversity of learning styles in children. The teacher 
must use multiple teaching strategies. The arts can open new pathways 
that correspond to individual learning styles and make it possible for 
the teacher to engage every child in active learning. All of these 
techniques and strategies come together to improve student achievement.
    Research by Catterall, Capleau, and Iwanga has shown that low-
income students who have opportunities to regularly participate in the 
arts fared better in other academic areas than those who were low 
participators in the arts. Another study by Heath and Roach showed that 
low-income youth fared better across a wide range of variables from 
academic achievement to developing leadership skills when the arts were 
a part of their lives. The arts develop skills and talents that foster 
imagination, critical thought and teamwork; skills that are 
transferable to the workplace. In a 1999 study of 91 school districts 
in 42 states and directed by the Arts Education Partnership and the 
President's Committee on the Arts and Humanities, evaluators found that 
the arts contribute significantly to the creation of the flexible and 
adaptable workers that businesses demand to compete in today's economy.
    In April, 42 of our Maryland participants traveled to Milan for one 
week to experience the arts of Italy. In July, we will serve almost two 
hundred Maryland teachers and administrators and an additional twenty-
five from Italy through an agreement with the Italian Cultural Society 
of Washington, D.C. The significance of this work is now being 
recognized internationally. Compartmentalization of academics prevents 
students from seeing the natural connections among content areas. Life 
itself is integrated. A truly rich education experience will help 
provide connections to enrich the life of every child. I want to thank 
the committee for your interest and for providing this opportunity to 
share our experiences and methods.
Background on the Maryland Artist/Teacher Institute
    We are fortunate in Maryland to have a Superintendent, Dr. Nancy S. 
Grasmick, and a State Board of Education who recognize the value of the 
arts in children's lives. Through the vision of James L. Tucker, 
Coordinator of Fine Arts, and Mary Ann Mears, Chair of the Board of 
Arts In Education in Maryland Schools Alliance, a partnership was 
formed twelve years ago between the Maryland State Department of 
Education and the Maryland State Arts Council that has culminated in an 
institute that is making changes in the lives of students, educators 
and administrators. In other words, schools that take the work 
seriously are succeeding in exciting ways.
    The Maryland Artist/Teacher Institute is an intensive staff 
development program conducted by master teachers, artists, and artist-
educators in residential settings. Through demonstrations, seminars, 
and workshops, teachers are provided opportunities to enhance their 
knowledge of the relationships among content areas and of ways that the 
arts can be used to integrate curriculum, content, processes, and 
skills. Cross-disciplinary teams examine various models for integrating 
the arts into the school curriculum. The teams also participate in 
hands-on workshops to become more familiar with creative processes and 
to develop understanding of the continuous interaction that occurs 
among the arts and other content areas.
    Various models for integrating the arts are explored in order to 
determine which models best meet the needs of the schools. School 
designs are developed that focus on raising expectations and standards 
for student performance. They include aggressive, site-based campaigns 
to enhance student achievement and self-esteem by infusing the arts 
across the curricular core of the school. It is not considered merely 
an arts program, but rather, the goal is an education program based on 
the disciplined application of the arts across the entire curriculum.
    This institute provides opportunities for school-based teams to 
develop innovative educational programs that enable students to not 
only study the arts but also learn through and about them while 
improving achievement and performance in other content areas. A major 
challenge is developing and implementing an instructional plan that 
provides effective teaching for learning opportunities in the arts and 
that are useful within the variables of the situation--school 
organization, people, and resources. Within this context, the institute 
focuses on developing exemplars that embrace innovative teaching for 
learning strategies, in and out of school collaborations, and 
alternative ways of assessing student success.
    The work of the Maryland Artist/Teacher is based on research as 
reported in a number of sources. They include, Putting the arts in the 
picture, edited by Rabkin and Redmond, Champions of change: The impact 
of the arts on learning, edited by Fiske, Critical links: Learning in 
the arts and student academic and social development, edited by Deasy, 
and Third space: When learning matters, by Deasy& Stevenson in which 
ten elementary, middle, and high schools serving economically 
disadvantaged students in urban and rural regions of the country were 
observed over three years. This research report describes how the arts 
created the optimal conditions to engage students actively in learning 
that matters to them. ``The research suggests that educational reform 
can emerge from the bottom up, when the student becomes the epicenter 
of school transformation.''
Timeline
    The Institute is conducted in residential settings. Participants 
are involved in an intensive instructional program 8 hours daily for 
one week in July. A one-week second session is offered for those who 
wish to return. In that session, educators experience longer workshops 
with different artists in order to take them to a higher level of 
expertise.
    During the school year they implement an action plan, developed 
during the summer institute, in their schools with the support of 
mentors, teachers, and artists.
Performance Outcomes
    1. Participants will design and implement an integrated, arts-
centered educational program that creates an exciting and dynamic 
environment for learning. The environment places learners at the center 
of activity and the teachers in diverse roles as instructor, coach, and 
mentor.
    2. Participants will design and implement a coordinated, arts-
centered curriculum. The curriculum integrates and embeds the arts as a 
teaching and empowering tool throughout the entire curriculum while 
providing fine arts experiences in each arts discipline. The curriculum 
provides alternative ways for students to acquire knowledge and skills 
and to experience personal and group success. It provides insight into 
the uniqueness of others while promoting understanding of diverse 
cultures.
    3. Participants will design and implement instructional strategies 
that prepare students for the work place. Strategies designed include 
teaching creative/critical thinking skills required for practical 
problem solving and decision making, opportunities to develop personal 
responsibility, and to collaborate and function as team members.
    4. Participants will design performance assessment strategies that 
measure student achievement of standards in the arts and other 
disciplines. Assessment strategies are an integral part of the teaching 
for learning process and include demonstrations, performances, and 
portfolios.
Evaluation
    Participants will have successfully completed the requirements of 
the program when they fulfill the summer institute's requirements and 
all post-institute assignments. Post institute assignments are 
submitted in written or video formats and include a minimum of two 
integrated instructional units, evidence of staff and artists 
collaborations, and documentation of implementation activities. 
Evidence of completion must be presented at the end of the academic 
year.
    1. School teams will develop an action plan for implementing an 
arts-centered educational program in their schools during the school 
year. Successful plans will include goals, objectives, implementation 
strategies, and appropriate benchmarks for measuring progress.
    2. School teams and individual participants will demonstrate 
understanding of ways to integrate the arts across the curriculum by 
developing and implementing integrated, performance-based curricular 
units in their classrooms during the school year.
    3. School teams and individual participants will demonstrate ways 
of implementing skills for success strategies during peer coaching and 
mentoring interactions during the school year.
    4. School teams and individuals will present evidence of 
implementation of a variety of performance assessment strategies in 
narrative year-end reports, photo documentation, and video formats.
Conclusion
    There is solid research measuring how the arts boost achievement in 
math and science. Students who took four years of arts coursework 
outperformed their peers who had one-half year or less of arts 
coursework by 38 points on the math portion of the SAT. Students who 
include the arts in their studies are 4 times more likely to be 
recognized for academic achievement and 4 times more likely to 
participate in a math or science fair.
    However, study of the arts is intrinsically important. The arts not 
only are a primary transmitter of history and culture, they contribute 
to a higher quality of life that is available in no other way. As 
stated in Critical Evidence: How the arts benefit student achievement 
recently published by the National Assembly of State Arts Agencies and 
the Arts Education Partnership, learning in the arts is academic, 
basic, and comprehensive. Through providing effective instruction in 
the arts, both as discrete subjects and through integration into other 
content areas, we enrich the lives of our students through higher 
levels of academic achievement in general, we aid in the development of 
more positive social skills, we increase motivation to learn, and we 
help to create a more positive school environment. The body of research 
supporting these notions is becoming increasingly more compelling. 
Through using best practices in arts education and integration, we will 
ensure that no child is left behind.
                                 ______
                                 
    Mr. Castle [presiding]. Thank you very much, Mr. Zeigler.
    We have had a coup since you started speaking. Mr. McKeon 
had other business. We are going to have votes here in about 15 
or 20 minutes perhaps, so I have to take a break for that.
    So what we are going to enter into now is each member 
asking questions of you. We are all allotted 5 minutes. I am 
going to try to enforce that fairly strictly because of the 
need to break for votes and trying to keep somewhat on 
schedule.
    And I am going to violate everything by asking a question I 
am going to ask each of you to answer, but when we get to the 
5th minute, I am going to have to shorten it. I have already 
taken about 40 seconds doing this, so you have about a minute 
each to answer this.
    My general question--and I will start with Mr. Lydic and go 
across: Is there any measurement of the academic achievement by 
the integration process that you all have discussed here, the 
innovation and the integration which you are doing?
    To me, seeing it and hearing what you are saying, it seems 
to me that these students are improving and some of your 
overall test scores in schools have improved. Mr. Holt sort of 
talked more generally about that. But my interest is whether or 
not there is a measurable way we can say that this integration 
is working.
    And then the second part of this, you can answer either 
part, maybe not both if you don't have time, is: Are other 
educators with whom you come into contact, that is teachers and 
principals, as enthused as all of you are? I would like to 
transfer all of you to the classrooms all over the country, but 
I am not sure they are all that enthused about it. Some think 
that is ridiculous, ``I teach English, nothing else,'' or 
whatever it may be.
    So I am sort of curious about that. So if you could discuss 
either of those questions. We will start with you, Mr. Lydic, 
and work as long as we can for 5 minutes.
    Mr. Lydic. OK. I will address the first question.
    As far as a measurement tool, to see how what I am doing in 
my classroom is impacting on our state test scores, there is 
nothing in place as such at our school at this point. I 
certainly would be open to that.
    I think that would be something that would be worthwhile 
because I think the better measurement tool we could have for 
that would put a spotlight on physical education and get 
children moving and to get more physical educators to 
incorporate academic content standards within their curricula.
    Like I had mentioned in my testimony, it is a wonderful 
environment to incorporate and to integrate. It is very 
difficult, I think though, to come up with that tool to 
measure, and I am certainly open to suggestions for that 
because I would love to see a connection between what I am 
doing in my classroom and students achieving. It would help me 
and it would help me further develop my program, additional 
funding for my program.
    To address your second question, I have been very lucky 
this year as a state teacher of the year to meet 50 other state 
teachers of the year, to see the enthusiasm. We meet four times 
a year for about a week each time, and we just walk away just 
extremely, I mean, we are already enthusiastic to begin with, 
but it is just a powerful opportunity.
    We were talking about it on the way here that it would be 
really a neat opportunity for you to have government officials 
come and see some of the things we are doing in that program, 
as well as other teachers around the country. But to that 
particular program, I feel I walk away with more enthusiasm and 
energy than any other professional development that I have ever 
done.
    Mr. Castle. Thank you, Mr. Lydic. Maybe we should have them 
all in here at once, all 50 of them.
    Dr. Garrison?
    Dr. Garrison. I am not familiar with any research that has 
looked an integrated curriculum. However, I am going to use our 
school as a test site in that before we started being very 
intentional about integrating curriculum, our test scores were 
not what they are today.
    In the summary that I submitted, it is pretty powerful 
information that when you start looking at 3rd-graders, 4th-
graders, and 5th-graders that across the board our lowest 
percentage of achievement is 94 percent, and that is science in 
5th grade.
    So unfortunately, I can't reference anything, and I am not 
sure how you can measure it unless you did something like an 
AB-design to determine pre-and post-impact, but I am sure 
somebody else can think through that one when they have a 
little bit more time.
    In thinking about the enthusiasm, I am going to say that 
without passion you shouldn't be in education. And so in 
addition to having a passion for making a difference in 
children's lives, I am going to also suggest that success 
breeds enthusiasm. Based on everything I have heard here, it 
could be contagious in that we have seen a lot of success and 
overcome many hurdles.
    And so helping other schools actually figure out how to get 
that success rate I think is wonderful. I would be happy to 
replicate this anywhere else, just to prove the fact that it 
can be done in a rural school or in an urban school.
    Mr. Castle. Thank you, Dr. Garrison.
    Mr. Holt, you may have to be the last one because the 
lights are coming on.
    Mr. Holt. I will be quick.
    As far as specifically measuring the effectiveness of 
integration across the subject areas, I don't know that I could 
specifically speak to that, but I can tell you, again if I 
talked about our journey from a failing school to an ``A'' 
school, I can say that integrating the subject matters has been 
a part of that journey. If you just look at our overall test 
scores, they have improved dramatically.
    I will comment on one strategy that we used to integrate 
the subject areas, and it is a program that our teachers are 
currently being trained in. It is called ``Real Reading in the 
Middle.'' What it does is it teaches the teacher specific 
reading strategies that they can use anywhere, anytime, not 
just in reading class.
    The specific strategies are taught in social studies and in 
science. They could be taught in physical education. They can 
be taught in art class. They can be taught anywhere. That is a 
program that was brought to us by a group that we are working 
with called ``Michigan Middle Start.'' I have some information 
available for you here today. It has been a real, real 
effective tool in getting us to push reading across all areas 
of curriculum.
    Just real quickly on the matter of enthusiasm, in my 
building, you will find people a lot more enthusiastic than I 
am. Success breeds success. We have tasted it, and we are never 
going back to the way things were before.
    Mr. Castle. Thank you, Mr. Holt.
    I think I had better call a halt if I am going to enforce 
this 5-minute rule.
    I turn to Mr. Miller now.
    Mr. Miller. Thank you. I will be very quick.
    If I might, Dr. Garrison, you mentioned the transition from 
2003 to today and the really high levels of performance on the 
Oregon achievement exams of your students. I would just like 
again for you to outline where your students are coming from, 
the community and the unemployment and the income and the rest 
of that.
    Dr. Garrison. Our community has one of the highest 
unemployment rates in the state. Our increase of students that 
are economically disadvantaged keeps growing. So at this point, 
we are 67 percent free and reduced lunch. So our children are 
coming with a lot of challenges. We have a lot of students who 
are homeless. I am going to also suggest that some of them, 
their basic needs are not met on a daily basis.
    So when you look at achievement and what we have done, one 
of the things that I have repeatedly just reminded staff and 
they are aware of is that socioeconomics does not put a cap on 
learning.
    Although we don't have the mix of students that you would 
find in schools locally in your area, I am going to suggest 
that really the dividing rod in our country is socioeconomics. 
It is not skin color. It is not language. It is money. That is 
a common thread that many of our schools are challenged with.
    Mr. Miller. Thank you.
    Mr. Castle. Thank you, Mr. Miller.
    Mr. Osborne is recognized for 5 minutes.
    Mr. Osborne. Thank you, Mr. Chairman.
    Thank you for being here today. I appreciate it very much. 
I do appreciate your observation on socioeconomics being the 
great divider. I saw that so clearly myself.
    I think obviously all of you are very talented and very 
creative people, and have some great ideas. But in terms of 
policy, we are charged with the task of trying to make No Child 
Left Behind work. So what I am really interested in are your 
thoughts on whether testing every year in grades 3 through 8 is 
essential; whether it is working; whether it is onerous, 
because we hear both sides of it. We hear teachers say, ``You 
know, I am spending all my time testing, and this gets in the 
way.''
    The evaluation also is very burdensome to some teachers and 
maybe somewhat threatening to some superintendents and 
principals as well. And then we are also hearing complaints 
about funding, that it is an unfunded mandate, that we are 
putting all this on the schools and we are not providing the 
funds.
    So those are the things I would be interested in hearing 
from you about testing, whether you think it is adequate; 
whether it is too burdensome; the evaluation, the annual yearly 
progress, whether those things need to be improved; and then 
last on the funding issue.
    I guess if each one of you would want to take a shot at any 
one of those three. Obviously, all of you can't talk about all 
three, but if there is one of those issues that is of 
particular interest to you, I would be happy to get your views 
on it. In any order, I am not going to single anybody out.
    Mr. Lydic. I guess we start with me and go down the line 
again.
    To address the question of do I think the testing is 
appropriate or do I think it is a good idea, I think it is 
always a great idea to take a hard look at how things are 
doing, and testing is certainly I think one of the best ways to 
do that.
    Can the tests be improved? Certainly it can be improved. 
When you take a hard look at yourself, what is happening, and 
what I have seen in the last 5 years is that educators are 
talking more and more about how we can get better. I think that 
getting better in any profession at anything is what we strive 
to do, and education shouldn't be any different.
    What I do see is I see the testing, and maybe an unintended 
consequence possibly in a lot of different areas, not 
specifically my area, to be graphic anyway, is that certain 
programs, physical programs, movement programs, arts, are being 
cut because the priority is getting those test scores up. In 
doing so, I think the limited scope of the focus is on math, 
reading and science, rather than integrating and rather than 
developing the whole child.
    So I think that may be my concern about it, but I still 
think that it is a positive tool.
    Dr. Garrison. I think testing is part of teaching. So when 
you look at some of the informative information, you don't know 
if what you have taught is going to make a difference for the 
learner. I don't feel, however, that one test point or one 
data-point is indicative of what a student has learned over 
time.
    One of the things that I would encourage you to look at is 
growth, because we receive many students that are from migrant 
families that have been in several different schools before 
they ever reach our school. When they get to us, sometimes it 
could be the day before we actually do assessments. What I 
would rather look at is the growth that that child makes versus 
what their performance is on one single day.
    I would also encourage you to look at, and let me back up 
for just a minute. I am supportive of the assessment, and I 
don't feel that we teach to a test, and I don't feel that we 
spend time teaching to a test. I also am going to suggest that 
we do very much what you have done, and that is we look at that 
data ongoing and we use professional learning teams to make 
decisions and to assess what we are doing, because you can't 
teach in a vacuum. You have to look at if your students are 
getting the message that you hope that they are getting.
    One of the other areas I would encourage you to look at are 
the subgroups, because when you start looking at students with 
special needs, I am going to again say growth is more important 
than just looking at what they should achieve, and 100 percent 
performance would suggest that they don't have special needs, 
and they do have special needs. That may mean linking it back 
to a student's IEP and looking at growth over a year would be a 
wonderful way to determine if a student with special needs is 
actually learning or not.
    Mr. Holt. I am going to build on what Dr. Garrison just 
said in talking about the subgroups. That is an issue that 
really does need to be examined carefully, and especially in 
the relation of when you are talking about students with 
special needs. It really should be looked at closely and 
analyzed before any changes are made or in the context of 
possibly making changes.
    Getting to the broader question of testing are we testing 
too much, that is difficult to say. Of course, I hear that 
charge, too, but my attitude is, here it is. The law has been 
passed. The tests are there. That is our challenge and we need 
to do everything we can to meet those challenges.
    It is not done too much if you use the information in a 
useful way. If the tests are valid measures of what the kids 
are learning, if the schools are using the information to 
modify and change their instruction and then continue to 
evaluate, then it can be a positive thing. But the key is that 
they are used in the proper way.
    Mr. Castle. Let me cutoff this answer now so we can go on 
to others. Perhaps I would suggest that we start with Mr. 
Zeigler next time so that he has an opportunity to say 
something here as well.
    I turn to Mr. Kildee for 5 minutes.
    Mr. Kildee. Thank you, Mr. Chairman.
    Many people have expressed concern about the narrowing of 
the curriculum because of No Child Left Behind, the emphasis on 
math and reading. I am particularly concerned about that as co-
chair of the Native American Caucus, and Title VII, because the 
Department of Education wrote to schools in St. Paul, who have 
a number of Title VII schools, saying that we accept your 
program this year, but next year we want a shift from history 
and culture to reading and math.
    That is the strong arm of the U.S. Department of Education 
reaching into the local schools, talking about curriculum. When 
the Department of Education was set up, and I was here, I think 
my 1st year in Congress in 1977, we were forbidden to set a 
national curriculum. But when you do have the long arm reaching 
in and telling them to move and shift their emphasis, I do 
worry about that.
    I have been encouraged, though, by what all of you have 
said, how you are trying to, while emphasizing the importance 
of reading and math, that you are really trying to integrate 
these programs into all of the education. It is encouraging, 
but could you extrapolate on that some, and give some examples 
where you are not neglecting the other areas of education, the 
history and culture and these matters?
    I am going to start with you, Mr. Zeigler.
    Mr. Zeigler. Our fine arts standards, in the first place, 
do speak to all of that. We are finding that more and more 
throughout the state that in schools particularly involved in 
integration of academic content areas, they are able to reach 
the standards, the state standards, and we use the national 
standards as well, by new methods and new means.
    By the way, I would just like to add there is a wonderful 
compendium of research, ``Critical Links: Learning in the Arts 
and Student Academic and Social Development.'' This is a 
compendium of over 60 studies, very thoroughly researched 
studies, that is available. It was printed here in Washington. 
It does show the connections.
    As I had said earlier, I think the more we 
compartmentalize, the more we tend to alienate students. As 
someone said to me recently, ``If someone is doing poorly in 
math and they don't like math and you double the amount of math 
they have, they will hate it twice as much.'' And there are 
other ways to get to it. And we have heard a lot of testimony 
today of ways it can be done. I think we are opening some 
wonderful new opportunities for students here to reach all of 
the content areas in new ways.
    Ms. Ablott. What our school for science focuses on, we have 
an investigation station, which is the science resource room. 
The students rotate through there. We use literacy to present 
information to them. The students write in their science 
journals. In our ``Science City Weekly,'' the students will 
write each day, they journal in what they have learned that 
day, so that we integrate the scientific writing, as well as 
just journaling, so that that is part of their daily life as 
well.
    We use a lot of questioning with the students so that they 
develop their own learning. I model that style of teaching. The 
teachers stay in the classroom with me and we work 
collaboratively, so that we can work across the curriculum. The 
students, in their morning time have their science books that 
they are learning about the silkworms that we are observing in 
the investigation station, and they are doing math to measure 
them.
    It is funny. The students, when it is time for math, and 
sometimes the investigation station, will come up with, OK, we 
need to measure and how do we make a graph out of this data 
that we have collected. And we will say, ``Well, that's math.'' 
And unfortunately, even in our school when we try to cross the 
curriculum that way, they still compartmentalize themselves. So 
we work constantly to say, well, math is part of science, it is 
part of our life, this is what you need to do. We don't just do 
that during math class.
    We also use literacy in all area contents in order to make 
the students know that. In social studies, we use ``History 
Alive,'' which is a journaling. They draw pictures. So they 
write about it. They act it out.
    We move around as much as we can. In music, in P.E., we 
also integrate. She teaches math skills, science skills, they 
use grouping. So we use all the concept areas, all the teachers 
are familiar with the standards of learning for all grade 
levels. And we work collaboratively as a team. We have team 
priority time every day so that we can work together in order 
to bring skills up that interest them, bringing the students to 
a higher level.
    Mr. Kildee. Thank you.
    Thank you, Mr. Chairman.
    Mr. Castle. Thank you, Mr. Kildee.
    Let me just make this announcement. We have our votes here 
shortly, and we are talking about 10 or 12 more minutes in 
which we can continue to answer questions. Because it is three 
votes, it is going to be very hard to bring everybody back, so 
hopefully the members can cooperate, and we need to keep 
everything relatively brief, so we can try to fit everybody in.
    I recognize Mrs. Biggert for her comments for 5 minutes.
    Mrs. Biggert. Thank you, Mr. Chairman.
    I am so impressed with all of the testimony today and how 
much you are doing to integrate. I think I hear more from so 
many educators who are in my district that are not able to do 
the other things besides reading and math and science. And here 
you have this program that brings in all of them. They say, 
what happened to the gifted program? What happened to the art 
program? What happened to the music program? We don't have 
time.
    I think that you all have really been able to really move 
ahead and provide a real balanced curriculum to your students, 
as well as further the learning by integrating it. So I would 
like to know, when you find ways of linking the curriculum, how 
are you spreading that information to other teachers in your 
school or in your district, or to other surrounding districts? 
Is there a way that you do that?
    Ms. Ablott?
    Ms. Ablott. We have a collaborative team planning time so 
each grade level can plan together. On Wednesday afternoons, we 
have early dismissal, so we have a time when all the 
specialists, like I as science, the music and reading teacher, 
we can meet with the grade-level teams as well, to work 
collaboratively to share the learning.
    We have professional development that we as a group decide 
that we need to work on our reading skills, so that we will 
have the speakers come to our school and the county requires 
that we attend two in-services each year to extend our learning 
as well.
    We have lead teacher meetings, where each building has a 
science, reading, math and social studies lead teacher. We meet 
three times a year where we share ideas. We have professional 
development there that we take back to our buildings, and 
things to share with the teachers. And so we can commute 
between buildings.
    We have, of course, the email system. The county can set 
questions for the staff, for the lead teachers, and we can 
discuss it online and get back to each other. We have a 
blackboard where we can have a discussion board and discuss 
things as well, so there are a variety of ways.
    Mrs. Biggert. Are there ever any teachers that say, you 
know, ``I am a traditionalist. I teach math, and that is all I 
am going to do. I don't want to be bothered with bringing P.E. 
in there and everything''? Do any of you have any problems with 
that? And how do you solve it?
    Mr. Holt?
    Mr. Holt. There is kind of an old saying, ``You plow around 
the stumps.'' And that is what it gets down to. As we said 
earlier, success builds success, and you find things that work, 
and when people see that you are having success and people see 
that things are working, pretty soon they are on board.
    To get to your first question about sharing, everything we 
do in my building is done together. It is not a collection of a 
bunch of one-room schoolhouses or independent contractors. We 
are a team. We work together. We found that has been what has 
worked, so when folks see that, they want to be a part of that.
    As far as sharing it with other districts and other places, 
that is difficult to do, and that gets to the area of funding 
that Dr. Garrison talked about. In Michigan, it is different 
than Virginia, and a lot of places where you guys are from. In 
Michigan, every community almost is its own separate school 
district, as opposed to Virginia where each county has a 
district.
    So you may have a district like where I am in Johannesburg-
Lewiston that is relatively healthy financially, right next 
door to one that is not, and they simply can't do the things 
that we are doing. The funding is just not there. So there are 
other challenges for some of the folks that we are not faced 
with.
    Mrs. Biggert. Dr. Garrison?
    Dr. Garrison. We get the word out within our school, and 
actually throughout our state. We do a pretty good job, and 
sometimes we cross state lines. Within our schools, we have 
ladder team meetings, so our teachers meet K through 5, because 
as Mr. Holt was saying, to have an independent contractor work 
in isolation means that nobody is learning from each other.
    More importantly, our students are not benefiting. So they 
talk about strategies and approaches, and apply what they have 
analyzed within their data. We also work really hard at having 
teachers be leaders within our school so that they are in fact 
leading the development. I have a lot of experts who are 
incredibly knowledgeable. So they definitely take the bull by 
the horns and take that on.
    We have become onsite within our district because we take a 
lot of risks, and so far we have been lucky with the risks we 
have taken. So we have become a model school where other 
schools come and visit and get ideas and observe in our 
classrooms.
    I also continue to consult because it generates revenue, 
and the money goes back to my school. That consulting means 
that the word gets out within Oregon because I do a lot of 
contracts within our state, and also I cross state lines. So I 
am able to share some of what we do.
    Mrs. Biggert. Thank you.
    Mr. Castle. Thank you, Mrs. Biggert.
    Mrs. Davis?
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you all for being here.
    One of the things that No Child Left Behind didn't focus on 
was principals, and the quality of principals. We focused so 
much on the quality of teachers. While we have you here, and we 
can't clone you, that is not an option, could you talk a little 
bit about what you think might be appropriate in 
reauthorization as it relates to principals?
    That may be difficult for you to go there, but you 
obviously have been doing a lot of what you were doing before 
No Child Left Behind, meaning that the attitude of working 
together, the collegiality with the schools, and perhaps even 
those of you, not necessarily principals, but obviously you 
have experience with instructional leaders that make that 
happen. What could you offer us, what would you like to share 
that you think might be an improvement, and might be a real 
value-added as we go into reauthorization?
    Mr. Holt. I really don't know how you would address that 
through legislation. Just to speak in general terms, the 
principal's job is the best job in the world 99 days out of 
100. There is that other day that comes up every now and again, 
but I am sure we all have had those in our professions in what 
we do.
    Simply encouraging our best and our brightest and our most 
energetic teachers to step forward and to take on the 
challenges of becoming principals, to me that is key in really 
developing the profession and helping schools achieve at the 
levels that we want them to. One of my professors in college 
once said, ``A great principal can't take a bad school and make 
it excellent, but a terrible principal can take an excellent 
school and put it in the tank pretty quickly.''
    So the point being that a principal really brings out the 
best in the people around him, he or she, if they do their jobs 
and they do them effectively, and teachers know all about that. 
So if we can just encourage our best and our brightest teachers 
to step forward, I think we would be doing a service.
    Dr. Garrison. I am not sure how you address it either, but 
there are some things that I see that I think make a huge 
difference. In several districts that I work in as a 
consultant, administrators change too often, and that change is 
not necessarily in the best interests of staff or students. I 
don't know how you make, I guess you do, make a law that says 
no, it needs to be much more stable for effective change to 
actually take place.
    So from my perspective, if you have a good administrator, 
sometimes they get moved up the ladder, so to speak, and that 
is not necessarily in the school's best interest or in the 
staff's best interest.
    Mr. Lydic. I would like to give a plug to my 
administration. I agree with both Mr. Holt and Dr. Garrison 
that the leadership is the most important, I think, for a 
school to achieve. When you have an administrator who gets out 
of the way and lets you teach and facilitates and gives you the 
encouragement and the support that you need, it encouraged me 
to open up my vision to see what opportunities I can do, and it 
kind of fueled my enthusiasm to kind of integrate and to build 
my program.
    So I agree with them, that an encouraging, supportive 
administrator, who also can make tough decisions, is what we 
are looking for if we are going to put anything in legislation.
    Mr. Castle. Ms. Davis, can we move on to others? We are 
trying to finish the hearing in the next 8 minutes, if we 
possibly could. I don't mean to cut you off.
    Mrs. Davis of California. It is OK.
    Mr. Castle. Sorry.
    Mr. Ehlers is recognized for as little time as he possibly 
can use.
    [Laughter.]
    Mr. Ehlers. I will try to hold it down to 15 minutes.
    [Laughter.]
    First of all, several comments. I think, Ms. Ablott, you 
were the one who mentioned the need for including science in 
the measure of AYP. That was the original intent when we passed 
the bill, and we inserted science to be assessed. But because 
very few schools were doing it, we postponed it, but clearly it 
should become part of the AYP.
    On the general topic here, what I have heard is wonderful, 
but to me not surprising. I think what we really need to learn 
more about, and what you are doing experimental work in, is how 
to integrate information and knowledge. I don't think we 
understand that nearly well enough. The educational psychology 
of it has stimulated a lot of questions in my mind, and I think 
we need to have those questions answered.
    As an example, and I should mention I am a nuclear 
physicist, but I have had a lot of involvement in elementary 
schools as well. Mr. Zeigler, it is absolutely no surprise to 
me that integrating the arts helps in teaching math and 
science. As a physics professor, the students that we had that 
I lost from physics majors almost invariably went into either 
music or arts. They were good physics students, but there is 
something about the way the mind works that combines those 
things.
    Geography is a wonderful subject to integrate a lot of math 
and science. Unfortunately, many schools have dropped 
geography. I just commend you for what you are doing. It is 
just really good work, and your testimony has been extremely 
helpful to us. The Federal Government cannot set the 
curriculum, but we have to set standards which can help. If 
they are done properly, it is very important to leading people 
in the direction of the things you have been doing.
    I think, Dr. Garrison, you talked about ``teaching to the 
test.'' That phrase has always irritated me because if the test 
is done properly and the teaching is done properly according to 
the standards set, you automatically teach to the test without 
even trying to. I commend you for bringing that out in your 
testimony.
    I really don't have any questions, except that one: How can 
we better learn how the brain integrates information? Do any of 
you have any ideas for just 1 minute?
    Mr. Castle. We have to make a decision here about whether 
we are going to come back or not. We can't get everybody in if 
we start going in to questions.
    Would it be possible to abort the question and go on to the 
others and let them make a brief statement? People can't come 
back.
    Mr. Ehlers. That is fine.
    Mr. Castle. Thank you, sir. I appreciate it.
    Mr. Ehlers. Perhaps you can let me know later. I will stick 
around.
    Mr. Castle. And by the way, we can submit written 
questions, which you may want to answer. That can happen as the 
process proceeds.
    Mr. Kind is recognized.
    Mr. Kind. Thank you, Mr. Chairman.
    I want to thank the panelists for an excellent presentation 
today. It does give us some hope and encouragement about No 
Child Left Behind. It has, needless to say, been very 
controversial in its implementation. I think a lot of the 
teachers still have huge question marks about the value of No 
Child Left Behind. I think it is because teaching is such a 
personal profession. Teachers want to maintain control and 
flexibility and creativity in their classroom.
    When they see the mandates of mandatory testing 3 through 8 
and the pressure and the high-stakes test, they feel they are 
using that kind of creativity. That is why it has been fun 
listening to your testimony, trying to seize on the moment and 
use your innovation to make the best of this legislation. It is 
going to be an important reauthorization coming up.
    Dr. Garrison, I do take to heart your testimony that we 
need to have adequate and stable funding streams for this, yet 
this hearing is being held in the shadow of a budget resolution 
that passed last night at 1:30 in the morning that is $15 
billion below the authorized level for funding No Child Left 
Behind.
    That actually goes backward in the Federal support for 
special education funding, from 17.7 percent down to 17 
percent, when there has been a bipartisan goal to get to a 40 
percent Federal cost share for special education. So in effect, 
we are going to continue to pit students against students for 
the limitation of resources in the classroom. That is not the 
right way to support you all, and our local schools, with the 
tools you need to do the job.
    Mr. Lydic, what I wanted to do is shift back to you, 
because one of the things I am hoping to get accomplished in 
the reauthorization is with physical education. Right now, it 
is not one of the core academic subjects. It is real neat 
hearing of your integration of the curriculum with P.E. If you 
do a survey nationwide, and studies are coming in, it is a 
hodge-podge out there. Some schools are dropping P.E.
    In fact, there was a national report the other day that 
showed that some elementary schools are even dropping recess 
because of the high-stakes tests that are going on. I think 
that is a mistake, given childhood obesity, Type II juvenile 
diabetes, the whole healthy body/healthy mind concept that we 
have to embrace as well. I think your approach is very novel. I 
would like to follow-up with you in particular to see what we 
can do to try to turn this around in time for reauthorization.
    I am also disturbed as a father of two little boys seeing 
more studies coming back that our boys in classes are starting 
to under-perform at all levels. I think one of the ways of 
reaching them is through physical activity and integrating a 
lot of these subjects with physical activity, because a lot of 
them are not wired.
    I know as a kid growing up I didn't like to sit still in 
class for a long period of time and do my class assignments. So 
I think there are a lot of different opportunities and the 
value of having a focus on P.E. education and how we can 
integrate the various lesson plans in it.
    I am not going to ask a question because I know the others 
want to go on, but thank you, Mr. Chairman, today.
    Thank you all.
    Mr. Castle. Thank you, sir.
    Ms. Woolsey is recognized.
    Ms. Woolsey. Thank you, Mr. Chairman.
    We had a breakfast this morning about how important 
principals are and how important teachers are. You are a panel 
that proves that point. You are excellent and I thank you.
    There are two things I would have asked, and maybe we can 
have the answers in writing. The first one is, based on your 
experience, what are the factors in addition to math and 
reading, which are tested now and required by No Child Left 
Behind, what are the other factors that schools can look at to 
measure student progress or AYP as it is called under the law, 
so that we would not just have one measure? I am preaching to 
the choir here, it sounds like.
    Then each of you spoke eloquently about reforms that you 
have implemented. Can you tell us what can we do in 
reauthorizing the law that would encourage more innovation? So 
what is getting in the way of innovation? Not you, because 
obviously you go ahead with it anyway.
    Thank you, thank you very much.
    Mr. Castle. Thank you, Ms. Woolsey.
    I see you are writing. If you would submit those, we can do 
it formally, but if you could informally submit to the 
committee your answers, that would be helpful.
    Mr. Holt has been kind enough to wait, but I want to give 
him a minute to say whatever he feels needs to be stated.
    Mr. Holt of New Jersey. I would appreciate your comments on 
Mr. Ehlers's assertion that science should be included in the 
adequate yearly progress measurement. I guess what I take from 
your testimony is that it is a lot more important what sort of 
teacher professional development we have and what sort of 
school supervision and coordination we have, than exactly what 
curriculum we have.
    So I guess I would like to know, you have kind of touched 
on this, but really what I would like to know is what policy we 
need so that everything you have talked about this morning will 
seem not the least bit out of the ordinary.
    Mr. Ehlers said he is not surprised that arts experience 
improves the integration of the other subjects, and so forth. 
Sure, but not every school is doing that. The question is, how 
do we do that? No Child Left Behind was trying to do this in 
reading and math, but how do we get that integration from a 
policy perspective?
    Thank you, Mr. Chairman.
    Mr. Castle. Thank you, Mr. Holt.
    Let me thank all the members. I apologize to those who we 
had to rush here at the end.
    Mr. Ehlers. Mr. Chairman, may I just make one quick 
comment?
    Mr. Castle. Certainly.
    Mr. Ehlers. I just wanted to say that 30 years ago we 
learned that teaching science improves the learning of reading. 
We have never pursued that, but just recently a report came out 
which verified that in much stronger terms. I just wanted to 
get that statement on the record.
    Thank you.
    Mr. Castle. If you haven't figured it out, these two 
gentlemen are scientists. They talk about science a great deal.
    Let me thank you all. We are going to have to rush off and 
vote. I apologize to those who are from Delaware. I won't be 
able to say good-bye because I have to rush quickly to the 
vote. But let me thank you all very much.
    I do want to apologize to the members whom we had to sort 
of short-change a little bit here, but once the votes begin, it 
is very hard to continue these hearings.
    And let me thank the kids, who were just remarkably well-
behaved for a 2-hour session. We thank them.
    It has been fascinating. You have been great, and thank you 
very much.
    With that, we stand adjourned.
    [Whereupon, at 11:46 a.m., the committee was adjourned.]
    [The prepared statement of Mr. Castle follows:]

   Prepared Statement of Hon. Michael N. Castle, a Representative in 
                  Congress From the State of Delaware

    I am excited to be here this morning for the first of our upcoming 
hearings on No Child Left Behind, and to hear from all of the witnesses 
who have taken time out of their schedules to share their various 
teaching methods with us.
    Over the course of the past several years, I have often argued that 
we are encountering one of the most exciting times in education. I have 
said this, and continue to say this, for a couple of reasons. First, we 
are all engaged, as a country, on closing the achievement gap. This 
conversation is happening at all levels of government, amongst parents, 
academics and especially in our school systems. This dialogue and 
support is key, and provides necessary momentum. Second, which will be 
highlighted today, is the fact that our educators are not shying away 
from the demands of No Child Left Behind. Over the course of my visits 
to schools, and in almost every press report, I hear about a teacher, 
administrator, or parent who has done something to raise the 
achievement level of the students in their lives. We must all remember 
that ultimately the point of No Child Left Behind is the needs of our 
students.
    One of my visits took me to Laurel Delaware, where I met Garrett 
Lydic--who is here to testify before us today. I do not want to give 
away any of his testimony, but as soon as I saw him in the classroom 
with his students, I knew that I wanted to share what I saw with my 
colleagues. Quickly, I learned that innovative teaching methods, and 
integration like his are happening in many schools across the country.
    What is interesting, and we sometimes don't think about in 
education, is that in our everyday lives we integrate various subject 
areas. Think about your day, and you'll notice that it is rare that you 
ever sit down to a task and focus solely on math or history or 
whatever. Not only is integration realistic, and yet another way to 
make learning fun, but it defeats those skeptics who believe that No 
Child Left Behind ``narrows curriculum.'' I look forward to hearing 
from all of you, and thank you for being with us today.
    After years of implementation, we have reached a point where we are 
able to both discuss implementation of No Child Left Behind, as well as 
the impending reauthorization. I want to thank Chairman McKeon for 
working with me when deciding our list of hearings--I look forward to 
working under your Chairmanship in highlighting No Child Left Behind's 
successes, and identifying ways in which we will be able to improve the 
law. Because one thing is for sure, it is here to stay. Finally, I'd 
like to recognize Ranking Member Miller's staunch support of the law. I 
very much look forward to our continued partnership.
    INTRODUCTION
    Mr. Garrett Lydic--Mr. Lydic is a Physical Education teacher in 
grades 2 through 4 at North Laurel Elementary School in Laurel, 
Delaware. He has recently been chosen as Delaware's Teacher of the Year 
for 2006. As a teacher Mr. Lydic has excelled in integrating academic 
subjects into his physical education curriculum. Also joining Mr. Lydic 
are some of his students; Alyssa Givens, Gaby Culver, Shanda Mann, 
Alexa Fetty, Natalie Sava, and J.T. Tyndall.
                                 ______
                                 
    [The prepared statement of Mr. Norwood follows:]

    Prepared Statement of Hon. Charlie Norwood, a Representative in 
                   Congress From the State of Georgia

    Mr. Chairman, I thank you for hosting today's hearing. In the four 
years since Congress passed and the President signed the No Child Left 
Behind Act into law, a sea change in American elementary and secondary 
education has taken place. For the first time in many years, American 
schools are being held accountable for achieving results, the federal 
government is spending money on programs that actually work, and 
students are not simply falling through the cracks of the public 
education system.
    In short, our schools are finally making progress after years of 
plummeting student performance in core reading and math skills. That is 
obviously a good thing, and the most critical elements of the No Child 
Left Behind Act (NCLB) are responsible for this transformation.
    NCLB put in place an invaluable national testing regime that gauges 
student performance on year-by-year basis, along with a ``report card'' 
for parents that grades school achievement levels.
    Without the information generated from the report cards and the 
annual testing, parents would still be in the dark regarding their 
kids' school performance, and they would have little-to-no idea how 
their children stack up against their peers throughout the state. 
Parents need that information in order to make informed decisions about 
the children's education, and they are using the new information to 
take control of their children's future.
    The NCLB legislation also mandates improved teacher quality 
requirements that ensure all students are being taught by a highly 
qualified teacher. This is also a good thing. After all, how can 
American children expect to compete with their Chinese peers if their 
teachers are not qualified to properly teach critical math and science 
skills that form the building block of knowledge-economy jobs?
    These accolades are not political talking points. They are simply 
the facts that are clearly visible in long-term trend data released by 
the National Association of Education Progress (NAEP) that reveals 
significant improvement in student achievement since the NCLB laws went 
into effect. Reading and math scores are up across the board--most 
notably in minority communities--and many states are beginning to make 
real headway in placing a qualified teacher in every classroom.
    Now this does not mean that we here in Congress can slap each other 
on the back and congratulate ourselves on a job well done. In fact, we 
still have a long way to go in order to ensure that every school can 
make adequate yearly progress in reading and math scores. We must also 
continue to push the states who are not working hard enough to put a 
qualified teacher in every class-room.
    Some critics believe that the federal law's particular focus on 
math and reading assessment causes school districts to ignore other 
important subjects. In my own home state, I hear from folks that 
believe NCLB forces teachers to ``teach to the test,'' which distracts 
their attention from more creative and comprehensive educational 
pursuits. If this is the case, and I'm not sure that it is throughout 
the majority of the schools in Georgia, we ought to pay close attention 
to the testimony of our witnesses here today. After all, a rich and 
varied curriculum is critically important to the development of our 
young people.
    Our Committee has a responsibility to fully investigate this issue, 
fix what needs to be fixed, and continue examining NCLB to improve 
federal education policy. This hearing is a good first step in our 
effort to fulfill that goal.
    I thank you for the time Mr. Chairman, and respectfully yield back.
                                 ______
                                 
    [The prepared statement of Mr. Porter follows:]

  Prepared Statement of Hon. Jon Porter, a Representative in Congress 
                        From the State of Nevada

    Good Morning, Mr. Chairman. I am pleased that the committee is 
holding today's hearing on the impact of No Child Left Behind's 
expanded focus on reading and math. I appreciate our panel of witnesses 
for joining us today and the diverse perspectives that they can provide 
us on this important issue.
    One of the building blocks of our nation's success throughout our 
history has been the ingenuity and invention which allow us to 
continually overcome the challenges we face and fill the needs that we 
have. This ability has traditionally been the product of a free-
thinking and open society, in concert with the excellence of the 
education available to us. As our dynamic economy continues to grow, we 
must continue to rely on this ingenuity and vitality of thought. 
Excellence in the fields of math and science must be a priority for 
this to occur, as our increasingly technological society requires 
increased research and scientific engagement.
    The basis for these abilities lies firmly in the ability of our 
elementary and secondary schools to provide the highest quality math 
and science education available. To ensure that this education is of 
the finest quality, Congress, in concert with States, local education 
agencies, and institutions of higher education, must strive to provide 
the necessary incentives to bring our best and brightest math and 
science teachers into the classroom.
    In my own school district, we hire approximately 3000 new teachers 
per year. A significant portion of these slots are teachers of math and 
science. Our tremendous growth has brought significant challenges in 
recruiting the finest teachers. We can all work together to engender 
greater interest in these fields, so that we can continue our strong 
tradition of technological advancement.
    Again, Mr. Chairman, thank you for calling this hearing today on 
this most important issue. I look forward to the testimony of our 
witnesses and am hopeful that we can work together to provide 
excellence in math and science education to all of our students.
                                 ______
                                 
    [Additional statement from the National Council for the 
Social Studies follows:]

                   National Council for the Social Studies,
                                                      May 25, 2006.
Hon. Buck McKeon,
Chairman, Education and the Workforce Committee, 2181 Rayburn House 
        Office Building, Washington, DC.
Hon. George Miller,
Ranking Member, Education and the Workforce Committee, 2101 Rayburn 
        House Office Building, Washington, DC.
    Dear Chairman McKeon and Representative Miller: Thank you for the 
opportunity to submit this testimony and to convey the conviction of 
the National Council for the Social Studies' (NCSS) more than 26,000 
members-around the nation and the world-that social studies is an 
invaluable discipline that should be included in conversations about 
federal priorities and investments in education-especially during the 
upcoming debate around the reauthorization of the No Child Left Behind 
Act (NCLB).
    The mission of the Council is to provide leadership, service and 
support for all social studies educators. Social studies educators give 
students the content knowledge, intellectual skills and civic values 
they need to fulfill the duties of citizenship in a participatory 
democracy.
    We look forward to working with you and your staff in the coming 
months on this important work.
    Thank you again for this opportunity.
            Sincerely,
                                             Susan Griffin,
                                                Executive Director.
                                                Jeff Passe,
                                                         President.
                                 ______
                                 

   Prepared Statement of the National Council for the Social Studies

    ``The United States and its democratic system of government are 
constantly evolving. No one can predict with certainty what may be 
needed from its citizens to preserve and protect it fifty years from 
now. For social studies to perform its mission of promoting civic 
competence, students must learn not only a body of knowledge but [also] 
how to think and how to be flexible in using many resources to resolve 
civic issues. It is not overstating the case to say that America's 
future depends on it.'' (Curriculum Standards for Social Studies. NCSS, 
1994, xvi)
    The mission of the National Council for the Social Studies (NCSS) 
is to provide leadership, service and support for all social studies 
educators. Social studies educators give students the content 
knowledge, intellectual skills and civic values they need to fulfill 
the duties of citizenship in a participatory democracy. The Council 
welcomes the opportunity to submit this testimony and to convey the 
conviction of the Council's more than 26,000 members-around the nation 
and the world-that social studies is an invaluable discipline that 
should be included in conversations about federal priorities and 
investments in education-especially during the upcoming debate around 
the reauthorization of the No Child Left Behind Act (NCLB).
    NCSS defines social studies as ``the integrated study of the social 
sciences and humanities to promote civic competence.'' Within the 
school program, social studies provides coordinated, systematic study 
drawing upon such disciplines as anthropology, archaeology, economics, 
geography, history, law, philosophy, political science, psychology, 
religion, and sociology, as well as appropriate content from the 
humanities, mathematics, and natural sciences. In essence, social 
studies promotes knowledge of and involvement in civic affairs. And 
because civic issues--such as health care, crime, immigration, and 
foreign policy--are multidisciplinary in nature, understanding these 
issues and developing resolutions to them require social studies 
education. These characteristics are the key defining aspects of social 
studies.
    Powerful social studies teaching helps students develop social 
understanding and civic efficacy. Social understanding is integrated 
knowledge of social aspects of the human condition: how they have 
evolved over time, the variations that occur in various physical 
environments and cultural settings, and the emerging trends that appear 
likely to shape the future. Civic efficacy-the readiness and 
willingness to assume citizenship responsibilities-is rooted in social 
studies knowledge and skills, along with related values (such as 
concern for the common good) and attitudes (such as an orientation 
toward participation in civic affairs). The nation depends on a well-
informed and civic-minded citizenry to sustain its democratic 
traditions, especially now as it adjusts to its own heterogeneous 
society and its shifting roles in an increasingly interdependent and 
changing world in the 21st Century.
    Recently, the Partnership for 21st Century Skills 
(www.21stcenturyskills.org) has emerged as the leading advocacy 
organization focused on infusing ``21st century skills'' into 
education. The organization brings together the business community, 
education leaders, and policymakers to define a powerful vision for 
21st century education and to ensure that students emerge from our 
schools with the skills needed to be effective citizens, workers and 
leaders in the 21st century. A recent report from the partnership, 
``Results That Matter: 21st Century Skills and High School Reform'' 
outlines a compelling framework for 21st century learning that focuses 
on the results that matter for today's high school graduates and 
suggests that the vision for 21st century learning embrace the 
following elements:
    1. A continued focus on English, math, science, foreign languages, 
civics, government, economics, arts, history and geography;
    2. The incorporation of 21st century content into the curriculum, 
such as global awareness, civic literacy, health awareness, and 
financial, economic, business and entrepreneurial literacy;
    3. Teaching of learning and thinking skills;
    4. Teaching of information and communications technology;
    5. Teaching of life skills, such as ethics and personal 
responsibility; and,
    6. The proliferation of 21st century assessments in education.
    In order for any of this to occur, there must be assurances that:
    <bullet> the curriculum for social studies is required in all 
schools, and at all grade levels on a regular basis;
    <bullet> the human and financial resources required to provide this 
social studies programming are available to all schools; and,
    <bullet> there are accountability measures for social studies in 
place at the school, district, state and national levels.
    The National Council for the Social Studies strongly supports these 
findings and recommendations, and urges the Committee to consider both.
    That is why we paid particular attention to a report released by 
the Center on Education Policy (CEP) on March 28, 2006 which focused on 
the implementation of NCLB. ``From the Capital to the Classroom: Year 4 
of the No Child Left Behind Act,'' is a comprehensive analysis of how 
the law is being implemented at the state, district and local levels. 
Based on a survey of 50 states, 299 school districts and 38 case 
studies of school districts, the report provides the most up-to-date 
information about the law's implementation and shares the opportunities 
and challenges that it has presented for states and districts.
    While the report found that implementation of No Child Left Behind 
has brought positive results to schools nationwide, NCSS is troubled by 
one finding: One-third (33 percent) of school districts reported 
reducing time for social studies ``somewhat or to a great extent'' to 
make time for reading and math, while 29 percent said they had reduced 
time for science and 22 percent for art and music. This is clearly an 
unintended result of NCLB that must be addressed.
    While we are familiar with Secretary of Education Margaret 
Spellings' assertion that ``what gets measured gets done,'' we believe 
this attitude shortchanges our youth as teachers and administrators 
focus almost exclusively on achievement results in math and reading. 
The gradual elimination of social studies from the school day would 
adversely affect social studies educators, students, families, 
communities and citizens.
    NCSS firmly believes that by incorporating a social studies 
curriculum into the school day, the reading and math skills of the 
students will actually be enhanced. For example, ``Review of Social 
Studies Research and Literature, 1995-2005'' (April 18, 2005), which 
was completed for a state social studies task force, highlights several 
key findings relative to instruction in the social studies that are 
worthy of note, and that those charged with formulating federal 
education policy should keep in mind:
    <bullet> Young learners, in the elementary years, are capable of 
learning foundation knowledge and processes that are also needed for 
learning in middle and high school social studies.
    <bullet> Using informational texts as a means to develop reading 
abilities is important for young readers, and encouraging older 
students to read a variety of texts * * * leads to greater achievement.
    <bullet> * * * [A]ll national standards documents assert that 
effective programs must help students learn important content and 
processes, beginning in primary school grades and building civic 
competence within each grade, K-12.
    <bullet> Assessments, especially those driven by accountability, 
determine to a large extent which studies receive time and emphasis in 
classrooms, what is taught to students, and which areas receive funding 
for materials and professional development.
    These findings suggest that an emphasis on reading knowledge alone 
ignores the value of important content and analysis. Rigorous and 
relevant social studies curriculum can-and does-teach reading skills 
while imparting important knowledge and skills.
    The District Facilitator of Social Studies in District 11 in 
Colorado Springs, CO recently analyzed data for elementary schools in 
this district of nearly 30,000. She noted a close correlation between 
high scores on state assessments in reading and those for the Terra 
Nova test, contracted through CTB-McGraw Hill, in Social Studies. This 
is an indicator that instruction in social studies, emphasizing 
vocabulary and reading skills, can lead to achievement in tested 
subjects-in particular, reading.
    One state in which rigorous and relevant social studies high school 
curriculum has become a reality is Michigan. ``To ensure Michigan's 
students have the skills and knowledge needed for the jobs of the 21st 
Century global economy, on April 20, 2006, Governor Jennifer M. 
Granholm signed into law a rigorous new set of statewide graduation 
requirements that are among the best in the nation.'' (http://
michigan.gov/mde/0,1607,7-140-38924---,00.html). Where once there was a 
requirement for 0.5 credits in civics, there is now required 3 credits 
of social studies--0.5 credit in civics; 0.5 credit in economics; and 
two others between U.S. history and geography and world history and 
geography. The state is also completing a revision of Grade Level 
Content Expectations for social studies, beginning with Kindergarten, 
to be presented to the state Board of Education in August.
    As evidenced by the findings of the recent report from the Center 
for Educational Policy, NCSS knows that this emphasis is not present in 
all schools, districts or states. The report points to a widespread 
reduction in the amount of time spent on social studies. Such cuts are 
illogical when contrasted with research showing that exemplary 
elementary teachers have their students do more social studies and 
science reading than students in less effective classrooms 
(www.readingrockets.org/articles/96, p 2-3 of 10 ).
    Further, the role social studies plays in encouraging responsible 
civic participation is irrefutable. Recently, the Civic Mission of 
Schools identified Six Promising approaches to civic education 
(www.civicmissionofschools.org). The very first approach, based on 
research, shows that schools can help to develop competent and 
responsible citizens when they:
    ``Provide instruction in government, history, law, and democracy. 
Formal instruction in U.S. government, history, and democracy increases 
civic knowledge. This is a valuable goal in itself and may also 
contribute to young people's tendency to engage in civic and political 
activities over the long term. However, schools should avoid teaching 
only rote facts about dry procedures, which is unlikely to benefit 
students and may actually alienate them from politics.''
    It is obvious that the potential narrowing of the curriculum as an 
inadvertent consequence of the implementation of No Child Left Behind 
warrants the attention of educators and policymakers across the nation.
    Powerful social studies teaching begins with a clear understanding 
of the subject's unique purposes and goals. NCSS's believes citizenship 
education is the primary purpose of K-12 social studies. Noting that 
concern for the common good and citizen participation in public life 
are essential to the health of our democratic system, it states that 
effective social studies programs prepare young people to identify, 
understand, and work to solve the problems facing our diverse nation in 
an increasingly interdependent world. Such programs:
    <bullet> foster individual and cultural identity along with 
understanding of the forces that hold society together or pull it 
apart;
    <bullet> include observation of and participation in the school and 
community;
    <bullet> address critical issues and the world as it is;
    <bullet> prepare students to make decisions based on democratic 
principles; and
    <bullet> lead to citizen participation in public affairs.
    <bullet> Provide deep content knowledge as a basis for each of the 
preceding skills.
    Clearly, these programs are also important tools for imparting math 
and reading knowledge and skills. Social studies is a discipline that 
facilitates the teaching of a number of subjects and arms young people 
with the knowledge and skills they need to be effective and responsible 
citizens. The National Council for the Social Studies looks forward to 
working with you in the coming months on the important effort of 
reauthorizing the No Child Left Behind Act.

                                 <all>

</pre></body></html>
